<html>
<title> - OVERSIGHT OF THE NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     OVERSIGHT OF THE NATIONAL TELECOMMUNICATIONS AND INFORMATION 
                             ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2018

                               __________

                           Serial No. 115-104



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 
           Available via the World Wide Web: http://www.fdsys.gov
                     
                                __________
                                
 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
30-286 PDF                  WASHINGTON : 2018                     
           
 ----------------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a> 
 


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 7_____

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     2
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
    Prepared statement...........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10

                                Witness

David J. Redl, Assistant Secretary for Communications and 
  Information, National Telecommunications and Information 
  Administration, Department of Commerce.........................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................    52

                           Submitted Material

Letter of March 5, 2018, from Marc Rotenberg, President, 
  Electronic Privacy Information Center, et al., to Mrs. 
  Blackburn, et al., submitted by Mr. Doyle......................    48
Letter of March 6, 2018, from Joy Ditto, President, CEO of the 
  Utilities Technology Council, to Mrs. Blackburn, et al., 
  submitted by Mrs. Blackburn....................................    50

 
     OVERSIGHT OF THE NATIONAL TELECOMMUNICATIONS AND INFORMATION 
                             ADMINISTRATION

                              ----------                              


                         TUESDAY, MARCH 6, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2123, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Latta, Guthrie, Kinzinger, Bilirakis, Johnson, Long, Flores, 
Brooks, Collins, Walters, Costello, Walden (ex officio), Doyle, 
Welch, Clarke, Loebsack, Ruiz, Eshoo, Butterfield, Matsui, 
McNerney, and Pallone (ex officio).
    Also present: Representative Tonko.
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Jennifer Barblan, Chief Counsel, 
Oversight and Investigations; Mike Bloomquist, Staff Director; 
Karen Christian, General Counsel; Robin Colwell, Chief Counsel, 
Communications and Technology; Sean Farrell, Professional Staff 
Member, Communications and Technology; Adam Fromm, Director of 
Outreach and Coalitions; Elena Hernandez, Press Secretary; 
Bijan Koohmaraie, Counsel, Digital Commerce and Consumer 
Protection; Tim Kurth, Deputy Chief Counsel, Communications and 
Technology; Lauren McCarty, Counsel, Communications and 
Technology; Drew McDowell, Executive Assistant; Austin 
Stonebraker, Press Assistant; Evan Viau, Legislative Clerk, 
Communications and Technology; Hamlin Wade, Special Advisor, 
External Affairs; Everett Winnick, Director of Information 
Technology; Jeff Carroll, Minority Staff Director; David 
Goldman, Minority Chief Counsel, Communications and Technology; 
Jerry Leverich, Minority Counsel; Dan Miller, Minority Policy 
Analyst; and Tim Robinson, Minority Chief Counsel.
    Mrs.  Blackburn. Good morning. Come on, guys. Good morning. 
All right. There we go. There we go.
    I want to welcome everyone to the subcommittee hearing this 
morning. And at this time I recognize myself for 5 minutes for 
an opening statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    And we want to begin by saying welcome to Mr. Redl. We are 
delighted to see you here, and we are excited to provide some 
oversight of NTIA since you've left us for the Administration, 
and as you well know, several of this committee's top 
priorities are carried out by the NTIA, not the least of which 
is efficiently coordinating Federal usage of spectrum.
    We are focused on making certain that you all are on task, 
as are we, and because of this, I want to mention at the outset 
that we are terribly disappointed with the snafu that occurred 
on the testimony submission and on the one sheet that we 
received that is an overview of testimony.
    You know our process. You know that we respect that process 
on both sides of the dais, and going forward, we would like to 
ask for an accommodation of that process as provided by the 
rules and also the expectations of the committee members.
    Around the world, countries are racing to be the first to 
5G. To be competitive the United States will need to 
continually make available spectrum needed to build out these 
networks.
    It seems NTIA is hard at work identifying bands that could 
be freed up for the commercial use, especially with the recent 
announcement of 100 megahertz that you've identified as a 
candidate band.
    We fully recognize the challenge of balancing the need for 
more spectrum with the significant national security and public 
safety issues associated with clearing these bands.
    We are looking forward to hearing from you this morning on 
your plans of how you will help the United States maintain our 
status as a global leader in the wireless space.
    Of course, spectrum isn't the only priority NTIA has, 
although we know that it is your favorite. The NTIA is also at 
the forefront of coordinating Next Generation 9-1-1.
    Just a few weeks ago, we celebrated the 50th anniversary of 
the first 9-1-1 call that was made in Haleyville, Alabama. Yet, 
we are still struggling to bring 9-1-1 into the 21st century.
    It's unfortunate to hear that deployment of Next Gen 9-1-1 
services are being stymied by States that divert much-needed 
funding for non-9-1-1 purposes.
    As NTIA and NHTSA Administrator State grants are taking 
place, we need to ensure that there is adequate funding and 
it's used efficiently.
    And while we are on the topic of funding, let's not lose 
sight of why we are here. As your oversight authority, it is 
our duty in Congress to make sure that you have the tools you 
need to succeed.
    It is no doubt that we have loaded up your plate with 
important priorities. But as we look to the fiscal year 2019 
budget, we seek to get a better sense of what you need to get 
the job done.
    I am pleased to see that you have indeed hit the ground 
running. I look forward to hearing more about your priorities 
in spectrum management identification as you embark on these 
issues.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Good morning and welcome back to the hearing room, Mr. 
Redl! We sure are excited to provide some oversight of NTIA 
since you've left us to the Administration. As you well know, 
several of this committee's top priorities are carried out by 
NTIA, not the least of which is efficiently coordinating 
Federal usage of spectrum.
    Around the world, countries are racing to be the first to 
5G. To be competitive, the United States will need to 
continually make available the spectrum needed to build out 
these networks. It seems NTIA is hard at work identifying bands 
that could be freed up for the commercial use, especially with 
the recent announcement of 100MHz that you've identified as a 
candidate band. We fully recognize the challenge of balancing 
the need for more spectrum with the significant national 
security and public safety issues associated with clearing 
bands. I look forward to hearing your plans on how we maintain 
our status as a global leader in the wireless space.
    Of course, spectrum isn't the only priority NTIA has 
(although we know it's your favorite). NTIA is also at the 
forefront of coordinating Next Generation 9-1-1. Just a few 
weeks ago, we celebrated the 50th anniversary of the first 9-1-
1 call made in Haleyville, Alabama. Yet we are still struggling 
to bring 9-1-1 into the 21st century. It's unfortunate to hear 
that deployment of Next Generation 9-1-1 services are being 
stymied by States that divert much-needed funding for non-9-1-1 
purposes. As NTIA and NHTSA administer State grants, we need to 
ensure that any funding for Next Generation 9-1-1 is used 
efficiently.
    And while we're on the topic of funding, let's not lose 
sight of why we're here. As your oversight authority, it is our 
duty here in Congress to make sure you have the tools you need 
to succeed. It is no doubt that we have loaded up your plate 
with important priorities -but as we look to the fiscal year 
2019 budget, we seek to get a better sense of what you need to 
get the job done.
    I'm pleased to see you've hit the ground running, and I 
look forward to hearing more about your priorities as you 
embark on these important issues. With that, I will yield 1 
minute to the gentleman from New Jersey, Mr. Lance.

    Mrs.  Blackburn. And with that, I yield the remainder of my 
time to Mr. Lance.
    Mr.  Lance. Thank you very much, Chairman Blackburn, and 
thank you to Assistant Secretary Redl for appearing before us 
today.
    The agency charged with managing Federal spectrum, the 
National Telecommunications and Information Administration, 
plays a key role as the United States competes in a global race 
to 5G.
    As the demand for more mobile data and high speeds 
continues to grow, it is critical that we make sure the Federal 
Government is using its spectrum efficiently and free up unused 
spectrum for commercial use, all while ensuring that agencies 
are able to fulfill critical missions.
    There are tough needs to balance, and I applaud Mr. Redl 
for moving quickly and identifying 100 megahertz of midband 
spectrum for potential commercial use.
    I've recently introduced legislation with Ranking Member 
Doyle, the Airwaves Act, which, among other things, also aims 
to free up more Federal spectrum for commercial use.
    I look forward to working with Mr. Doyle and with you, Mr. 
Redl, on these efforts moving forward.
    In addition to spectrum management, you also oversee 
critical public safety matters related to the Next Generation 
9-1-1 and FirstNet.
    I thank our distinguished witness for appearing before us 
today. I look forward to discussing these important issues with 
you, and I yield back 6 seconds, Madam Chairman.
    Mrs.  Blackburn. Gentleman yields back.
    Mr. Doyle, you're recognized for 5 minutes for an opening 
statement.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr.  Doyle. Thank you, Madam Chair, for holding this 
important hearing, and I'd like to also thank our witness, 
Administrator David Redl, for being with us here today.
    As it's been noted, Mr. Redl is no stranger to this 
committee, having served as counsel and chief counsel for 
Chairman Walden on this subcommittee.
    During his time here, Mr. Redl spearheaded the majority's 
effort on spectrum policy in internet governance and oversaw 
and directed policy for the full breadth of this subcommittee's 
jurisdiction.
    And now, after what appeared to be a rather drawn-out 
confirmation process, you've finally taken on the leadership of 
the National Telecommunications and Information Administration, 
the agency tasked with serving as the principal advisor to 
President Trump on telecommunications and information policy 
issues.
    David, I want to wish you the best of luck with this 
critical and quite challenging task. That being said, I also 
understand that you went to Penn State, which is my alma mater, 
and that you married a girl from Pittsburgh.
    So this shows good judgment on your part, too.
    [Laughter.]
    But again, welcome back to the committee. Our world grows 
more connected and interconnected by the day. The number of 
connected devices will exceed the number of people on the 
planet this year, and research suggests that the number of 
connected devices will be more than twice the population of the 
planet by 2020.
    This incredible growth has been fueled by innovation, 
investment, and access to wireless spectrum. The U.S. 
Government remains the largest spectrum holder in the United 
States, and NTIA is charged with managing Federal spectrum and, 
as you recently announced, figuring out how to transition 
additional spectrum to commercial use.
    It is critical that as your agency moves forward that you 
balance the needs of licensed and unlicensed industries. Our 
leadership in wireless broadband, our success in 4G, and our 
ability to successfully deploy 5G networks will depend entirely 
on our ability to make available sufficient spectrum to meet 
both communities' needs.
    NTIA's recent announcement identifying 100 megahertz of 
Federal spectrum to study for wireless broadband use is good 
news, and it's a good example of the valuable role NTIA can 
play in coordinating Federal spectrum use.
    It's also a reminder of how important our Federal R&D 
efforts are in this area. NTIA's research and engineering arm, 
the Institute for Telecommunication Sciences located in 
Boulder, is a critical part of this work.
    Having objective researchers and engineers who can work 
with Federal stakeholders to identify ways to free up or share 
spectrum is critical for meeting our Nation's wireless needs 
because navigating the tricky waters of interagency cooperation 
and coordination is difficult, at best.
    I'd like to also mention that the lab is led by a Carnegie 
Mellon grad, Keith Gremban--more good judgment on their part.
    Beyond spectrum, NTIA plays a key role as an interagency 
and multistakeholder convener within the Government and with 
commercial interest in civil society organizations.
    NTIA has done good work on cybersecurity, privacy, the 
Internet of Things, and unmanned aircraft. I believe that it is 
critical that this work continues. We need thoughtful, fact-
based interagency leadership helping agencies navigate these 
complicated topics.
    More work needs to be done in these areas as they go from 
being nascent innovations to globally deployed technologies and 
challenges.
    ICANN security is a particular concern to many. Our 
Nation's digital infrastructure is under constant attack by 
adversaries ranging from superpowers to script kiddies. And as 
we move towards 5G and future network technologies, we need to 
consider better how to bake security into these networks, how 
to harden them against attacks and tampering.
    It's my hope that NTIA can play a role in working with 
industry and Government stakeholders as these networks are 
being designed and deployed.
    Among your additional responsibilities in the United 
States' role in internet governance through ICANN, and while 
our Nation's role is changing, I expect NTIA to continue 
representing the United States' interest before the global 
internet community of ICANN.
    While ICANN's multistakeholder process can be cumbersome, I 
hope that NTIA can continue to work through the governmental 
advisory committee to protect our interest and work to maintain 
a globally unified and connected internet.
    I am also interested to see NTIA continue its work on 
BroadbandUSA, digital literacy, and public safety.
    I want to thank you. I look forward to your testimony and, 
Madam Chair, I will yield back the remaining 13 seconds.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    I'd like to thank Chairman Blackburn for holding this 
important hearing, and I'd like to thank the witness, 
Administrator David Redl, for being with us here today. As it 
has been noted Mr. Redl is no stranger to this committee, 
having served as counsel and chief counsel for Chairman Walden 
on this subcommittee. During his time here, Mr. Redl 
spearheaded the majority's efforts on spectrum policy and 
internet governance, and oversaw and directed policy for the 
full breadth of this subcommittee's jurisdiction.
    And now, after what appeared to be a rather drawn-out 
confirmation process you have finally taken on the leadership 
of the National Telecommunications and Information 
Administration, the agency tasked with serving as principal 
adviser to President Trump on telecommunications and 
information policy issues. I wish you the best of luck with 
this critical and quite challenging task.
    That being said, I also understand that you went to Penn 
State, my alma mater, and while not from Pittsburgh you are 
married to a Pittsburgher? Is that correct?
    Well we can't all be perfect, but it's a step in the right 
direction.
    Again, welcome back.
    Our world grows more connected and interconnected by the 
day. The number of connected devices will exceed the number of 
people on the planet this year, and research suggests that the 
number of connected devices will be more than twice the 
population of the planet by 2020. This incredible growth has 
been fueled by innovation, investment, and access to wireless 
spectrum.
    The U.S. Government remains the largest spectrum holder in 
the United States, and NTIA is charged with managing Federal 
spectrum and, as you recently announced, figuring out how to 
transition additional spectrum to commercial use.
    It is critical that as your agency moves forward you 
balance the needs of the licensed and unlicensed industries. 
Our leadership in wireless broadband, our success in 4G, and 
our ability to successfully deploy 5G networks will depend 
entirely on our ability to make available sufficient spectrum 
to meet both communities' needs.
    NTIA's recent announcement identifying 100 mega-hertz of 
Federal spectrum to study for wireless broadband use is great 
news, and it's a good example of the valuable role NTIA can 
play in coordinating Federal spectrum use. It is also a 
reminder of how important our Federal R&D efforts are in this 
area.
    NTIA's research and engineering arm, the Institute for 
Telecommunications Sciences located in Boulder, is a critical 
part of this work.
    Having objective researchers and engineers who can work 
with Federal stakeholders to identify ways to free up or share 
spectrum is critical for meeting our Nation's wireless needs, 
because navigating the tricky waters of interagency cooperation 
and coordination is difficult at best. I'd also mention that 
the lab is led by a Carnegie Mellon grad, Keith Gremban.
    Beyond spectrum, NTIA plays a key role as an interagency 
and multistakeholder convener within the Government and with 
commercial interests and civil society organizations. NTIA has 
done good work on cyber security, privacy, IT, and unmanned 
aircraft. I believe that it is critical that this work 
continue. We need thoughtful, fact-based interagency leadership 
helping agencies navigate these complicated topics. More work 
needs to be done in these areas as they go from being nascent 
innovations to globally deployed technologies and challenges.
    Cybersecurity is of particular concern to many. Our 
Nation's digital infrastructure is under constant attack, by 
adversaries ranging from superpowers to script kiddies.
    As we move toward 5G and future network technologies, we 
need to consider better how to bake security into these 
networks--and how to harden them against attacks and tampering. 
It is my hope that NTIA can play a role in working with 
industry and Government stakeholders as these networks are 
being designed and deployed.
    Among your additional responsibilities is the United 
States' role in Internet governance through ICANN. While our 
Nation's role is changing, I expect NTIA to continue 
representing the United States' interests before the global 
internet community at ICANN. While, ICANN's multistakeholder 
process can be cumbersome, I hope that NTIA can continue to 
work through the Governmental Advisory Committee to protect our 
interests and work to maintain a globally unified and connected 
internet.
    I'm also interested to see NTIA continue its work on 
BroadbandUSA, digital literacy, and public safety.
    Thank you, and I look forward to your testimony.

    Mrs.  Blackburn. We are on a roll this morning.
    Mr. Walden.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr.  Walden. Good morning, Madam Chair, and before we get 
started, I want to wish your counsel there, Tim Kurth, a happy 
birthday, I understand. There you go.
    [Applause.]
    We won't sing to you. That'll be your present from me: no 
singing.
    And Mr. Redl, good morning. Welcome back, Mr. Assistant 
Secretary. We have been looking forward to this moment for, oh, 
a very long time.
    [Laughter.]
    Energy and Commerce have been leading the way to close the 
digital divide, and for over a year now we have held hearings 
on broadband deployment and sought ways to incentivize buildout 
and our Telecom Subcommittee, which you're intimately familiar 
with, has held legislative hearings on numerous infrastructure 
proposals this year and, last, they provide plenty of 
opportunity for the committee and NTIA to work together toward 
achieving this end and closing the digital divide in the 
country.
    As the Energy and Commerce Committee continues to identify 
ways to accelerate broadband deployment, we first need to know 
which areas are truly unserved. Those areas need to be 
prioritized first.
    Mapping efforts have been in the past undertaken by NTIA, 
but responsibility shifted to the FCC in 2014 when funding 
lapsed.
    And, while we appreciate the Federal Communications 
Commission's efforts in this recall to improve the Form 477 
data, we need a better-funded NTIA to be able to aggregate that 
information with the data from multiple outlets across the 
States with other innovative ideas that are popping up to 
harness deployment coverage that may not get submitted in the 
carriers' compliance with the FCC process.
    In other words, you have the opportunity, if you're funded, 
to give us the data we need and that consumers want.
    As you all recall, this committee held a hearing on 
broadband mapping just last June to discuss how we can better 
define and map granular broadband coverage, and one of the 
proposals that flowed from that is Congressman Johnson's H.R. 
4810, with the support of Congressman Guthrie.
    That gets things moving again at NTIA. So I am pleased that 
those efforts have already yielded some progress as the Trump 
administration is asking our friends at the Appropriations 
Committee for $50 million for NTIA to get back into this very 
important work.
    The last time policymakers moved ahead without adequate 
mapping, they spent billions of dollars and didn't even have a 
sense of what we got for it. They spent the money before we had 
the maps.
    This time around, we want to make sure we get the maps 
first and take care of the people most in need of this 
assistance to close the digital divide.
    And as we move ahead on ways to accelerate broadband 
buildout, we are beginning to see the buildout of another 
important network, and that's FirstNet, which obviously we were 
very involved in back in the time when we put that legislation 
together.
    With all the States and the territories having now opted 
in, FirstNet should be full steam ahead, building out the 
Nation's public safety broadband network to make sure our 
public safety professionals have interoperable mission-critical 
access to broadband.
    As we saw with 9/11 and have since seen with active shooter 
scenarios and natural disasters, such as wildfires in Oregon 
and California and elsewhere, interoperability is critical for 
first responders and the people they serve.
    As NTIA continues its oversight of FirstNet, I look forward 
to seeing the implementation of the FirstNet plan.
    Finally, this agency plays an important role in assessing 
policy challenges across a gamut of issues. From spectrum 
allocation to public safety, NTIA has a full plate, and we are 
glad you're there.
    As we continue our oversight of the agency, we should 
consider how its role should evolve given its prominence in 
communications and information policy.
    Given the role NTIA plays in driving the American economy 
forward, it's vital that the agency has the tools it needs to 
establish an environment that fosters competition and 
innovation, and I know you want to lead the agency in that 
positive direction going forward. We want to be your partner in 
that effort.
    We thank you for being here today, and unless anybody else 
wants the remaining minute of my time, I am more than happy to 
yield it back and begin our process.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and welcome back, Assistant Secretary Redl! We 
have been looking forward to this moment for quite some time.
    Energy and Commerce has long been leading the charge to 
close the digital divide. For over a year now, we have held 
hearings on broadband deployment and sought ways to incentivize 
buildout. Our telecom subcommittee recently held a legislative 
hearing on numerous infrastructure proposals that provide 
plenty of opportunity for the committee and NTIA to work 
together toward this end.
    As the Energy and Commerce Committee continues to identify 
ways to accelerate broadband deployment, we first need to know 
which areas are truly unserved, so those areas are prioritized 
first. Mapping efforts have in the past been undertaken by 
NTIA, but responsibility shifted to the FCC in 2014 when the 
funding lapsed.
    While we appreciate the FCC's efforts to improve the Form-
477 data, we need a better-funded NTIA to be able to aggregate 
that information with the data from multiple outlets across the 
States and with other innovative ideas that are popping up to 
harness deployment coverage that may not get submitted in a 
carrier's compliance with the FCC process.
    As you all will recall, this committee held a hearing on 
broadband mapping last June to discuss how we can better define 
and map granular broadband coverage. One of the proposals that 
flowed from that is Congressman Johnson's H.R. 4810, with 
support from Congressman Guthrie, that gets things moving again 
at NTIA. I'm pleased that those efforts have already yielded 
some progress as the administration is asking our friends at 
the Appropriations Committee for $50 million for NTIA to get 
back in this space.
    The last time policymakers moved ahead without adequate 
mapping, we spent billions of dollars and didn't ever have a 
sense of what we got for it. This time around, we are going to 
get the mapping right. It is critical.
    And as we move ahead on ways to accelerate broadband 
buildout, we're beginning to see the buildout of another 
important network: FirstNet. With all States and territories 
having now opted in, FirstNet should be full steam ahead 
building out the Nationwide Public Safety Broadband Network to 
make sure our public safety professionals have interoperable, 
mission-critical access to broadband. As we saw with 9/11 and 
have since seen with active shooter scenarios and natural 
disasters, such as the wildfires in Oregon, interoperability is 
critical for first responders. As NTIA continues its oversight 
of FirstNet, I look forward to seeing the implementation of the 
FirstNet plan.
    Finally, this agency plays an important role in assessing 
policy challenges across a gamut of issues. From spectrum 
allocation to public safety, NTIA has a full plate. As we 
continue our oversight of the agency, we should consider how 
its role should evolve given its prominence in communications 
and information policy. Given the role NTIA plays in driving 
the American economy, it is vital that the agency has the tools 
it needs to establish an environment that fosters competition 
and innovation.

    Mr.  Walden. With that, I'll yield back.
    Mrs.  Blackburn. Gentleman yields back.
    Mr. Pallone, you're recognized for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr.  Pallone. Thank you, Madam Chairman.
    The National Telecommunications and Information 
Administration, or NTIA, has not always received the same 
attention as the FCC. But that doesn't mean it's any less 
important.
    The agency has quietly driven many of our Nation's 
communications policies from behind the scenes, and that's a 
good thing in the Trump administration, where most agencies 
have a hard time staying out of the headlines.
    Case in point: The FCC has thrust itself into the national 
spotlight by dramatically walking away from its statutory 
obligations to serve the American people.
    It's more than just their assault on net neutrality. It's 
privacy, cybersecurity, public safety--the list goes on and on, 
and the Trump FCC is simply refusing to do its job.
    And so I look forward to hearing from the new leadership at 
NTIA about what they can do to fill the tremendous void left by 
the FCC.
    I know that Administrator Redl has a deep understanding of 
these issues, and I hope he also understands that his agency 
must now step up to improve and secure our communications 
networks for the future.
    And I am particular interested in hearing how NTIA will 
handle cybersecurity as we move to more robust next-generation 
wireless networks and the Internet of Things.
    The administration itself has pointed out how vulnerable 
our wireless networks will be if the Government does not do 
more to protect them, and NTIA has an important role in 
figuring out how to make sure that they are secure.
    But NTIA needs to do more than just defend our networks 
from attacks. The agency must also find better ways to protect 
our privacy.
    During previous administrations, NTIA worked actively to 
protect our private information through a multistakeholder 
approach, and, now that congressional Republicans ripped away 
our online privacy, we need to know whether Administrator Redl 
plans to increase the NTIA's efforts to oversee our private 
information online.
    But NTIA's responsibilities do not end with privacy and 
security. The agency must also take an active role in 
encouraging broadband deployment and improving our Nation's 
broadband maps.
    Democratic members of this committee have introduced the 
LIFT America Act, which directs NTIA to distribute $40 billion 
to extend our broadband networks to Americans in every corner 
in the country.
    Ensuring that NTIA is the agency that's distributing these 
funds is critical. The FCC already manages the Universal 
Service Fund, which operates independently for many 
appropriations, and changing that now by comingling USF with 
appropriated funds would be a mistake and would risk its long-
term sustainability.
    That's why the LIFT America Act would direct NTIA to handle 
broadband infrastructure funding, and I would like to hear how 
Administrator Redl would handle this responsibility.
    And finally, I am interested to learn how Administrator 
Redl plans to deal with internet governance and our 
international commitments.
    Senator Cruz has been pushing for the U.S. to walk away 
from our agreements regarding ICANN, and I strongly believe 
that Senator Cruz is playing right into Russia's hands in their 
efforts to shake global confidence in our Government.
    Ultimately, these efforts could undermine the integrity of 
the internet. I was even more disappointed to see that Senator 
Cruz tried to use the confirmation process to force 
Administrator Redl to commit to undermining our country's good 
will overseas.
    These commitments are counterproductive, and I would 
therefore like to hear from the Administrator whether he has 
promised a predetermined outcome to his proceedings relating to 
America's oversight of ICANN.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    The National Telecommunications and Information 
Administration (NTIA) has not always received the same 
attention as the FCC, but that doesn't mean it's any less 
important. The agency has quietly driven many of our Nation's 
communications policies from behind the scenes. That's a good 
thing in the Trump administration, where most agencies have a 
hard time staying out of the headlines.
    Case in point: the FCC has thrust itself into the national 
spotlight by dramatically walking away from its statutory 
obligations to serve the American people. It's more than just 
their assault on net neutrality. It's privacy, cybersecurity, 
public safety--the list goes on and on. The Trump FCC is simply 
refusing to do its job.
    So I look forward to hearing from the new leadership at 
NTIA about what they can do to fill the tremendous void left by 
the FCC. I know that Administrator Redl has a deep 
understanding of these issues. And I hope he also understands 
that his agency must now step up to improve and secure our 
communications networks for the future.
    I am particularly interested in hearing how NTIA will 
handle cybersecurity as we move to more robust next-generation 
wireless networks and the Internet of Things. The 
administration itself has pointed out how vulnerable our 
wireless networks will be if the Government does not do more to 
protect them. NTIA has an important role in figuring out how to 
make sure they are secure.
    But NTIA needs to do more than just defend our networks 
from attacks. The agency must also find better ways to protect 
our privacy. During previous administrations, NTIA actively 
worked to protect our private information through a 
multistakeholder approach. Now that Congressional Republicans 
ripped away our online privacy, we need to know whether 
Administrator Redl plans to increase NTIA's efforts to oversee 
our private information online.
    But NTIA's responsibilities do not end with privacy and 
security--the agency must also take an active role in 
encouraging broadband deployment and improving our Nation's 
broadband maps. Democratic members of this committee have 
introduced the LIFT America Act, which directs NTIA to 
distribute $40 billion to extend our broadband networks to 
Americans in every corner of the country.
    Ensuring that NTIA is the agency that distributes these 
funds is critical. The FCC already manages the Universal 
Service Fund, which operates independently from any 
appropriations. Changing that now by comingling USF with 
appropriated funds would be a mistake and would risk its long-
term sustainability. That's why the LIFT America Act would 
direct NTIA to handle broadband infrastructure funding. I would 
like to hear how Administrator Redl would handle this 
responsibility.
    Finally, I'm interested to learn how Administrator Redl 
plans to deal with internet governance and our international 
commitments. Senator Cruz has been pushing for the U.S. to walk 
away from our agreements regarding ICANN. I believe strongly 
that Senator Cruz is playing right in to Russia's hands in 
their efforts to shake global confidence in our Government. 
Ultimately these efforts could undermine the integrity of the 
internet.
    I was even more disappointed to see Senator Cruz try to use 
the confirmation process to force Administrator Redl to commit 
to undermining our country's good will overseas. These 
commitments are counterproductive. I would therefore like to 
hear from the Administrator whether he has promised a 
predetermined outcome to his proceedings relating to America's 
oversight of ICANN.
    With that, I yield the rest of my time.

    Mr.  Pallone. So I don't know if anyone on my side wants 
the time that remains. If not, Madam Chair, I would yield the 
rest of my time.
    Mrs.  Blackburn. The gentleman yields back.
    Assistant Secretary Redl, we are delighted that you are 
here this morning.
    We appreciate your taking the time to come and we 
appreciate your testimony, and at this time I recognize you for 
5 minutes for an opening statement.

      STATEMENT OF DAVID J. REDL, ASSISTANT SECRETARY FOR 
COMMUNICATIONS AND INFORMATION, NATIONAL TELECOMMUNICATIONS AND 
       INFORMATION ADMINISTRATION, DEPARTMENT OF COMMERCE

    Mr.  Redl. Thank you.
    Chairman Blackburn, Ranking Member Doyle, members of the 
subcommittee, it's a pleasure to be back before the Energy and 
Commerce Committee.
    At the outset, I wanted to take this opportunity to 
congratulate the committee on advancing RAY BAUM'S Act. As many 
of you know, I spent 7 years working here on the majority staff 
alongside Ray Baum, and it's more than a little bittersweet to 
be back in 2123 without him here.
    But I am pleased to be here on the day that RAY BAUM'S Act 
will get its moment on the floor. Ray spent his life working in 
public service, and the RAY BAUM Act is a beautiful tribute to 
a wonderful person, and it's all the more fitting that it's 
being done by this committee through consensus.
    Consensus is similarly at the heart of what we do at NTIA. 
For example, given our dual mandate from Congress to protect 
Government incumbent operations and to make more spectrum 
available for commercial use, getting to yes requires quite a 
bit of consensus building.
    Thanks to the hard work of our Interdepartmental Radio 
Advisory Committee, NTIA was recently pleased to announce the 
selection of 3450 megahertz to 3550 megahertz as a candidate 
for reallocation to commercial services.
    While we still have a lot of work to do to determine how to 
protect Government incumbents that are in this band, the 
spectrum is immediately adjacent to the FCC's Citizens 
Broadband Radio Service spectrum and could help fuel our 
Nation's leadership in 5G.
    Just next door is the 3.5 gigahertz spectrum, and NTIA's 
Institute for Telecommunications Sciences, which is located in 
Boulder, Colorado, is working to bring CBRS to life.
    The heart of this innovative spectrum band are two 
systems--Spectrum Access System and the Environmental Sensing 
Capability--that will allow commercial uses to coexist with 
Navy radar systems.
    ITS is working with all interested stakeholders to certify 
these systems that are necessary to bring the band to market.
    Combined with the FCC's recent announcement on C-band 
spectrum, our efforts could make as much as 750 megahertz of 
contiguous midband spectrum available to meet our Nation's 5G 
needs.
    In addition to our spectrum work at NTIA, we work 
extensively to represent U.S. interests before consensus-based 
organizations like ICANN and the International 
Telecommunication Union.
    The ITU's Plenipotentiary Conference is coming up at the 
end of this year, and we are working with our colleagues at the 
Department of State to finalize U.S. positions and develop 
strategies to advance U.S. interests.
    Additionally, we are actively working to promote the U.S. 
candidate to lead the ITU's development sector, Doreen Bogdan-
Martin. Doreen's a former NTIA employee who spent many years 
working at the ITU Secretariat in Geneva to advance 
telecommunications policy around the globe. She's incredibly 
qualified, and I am proud to support her candidacy.
    Importantly, if she's elected, Doreen would be the first 
woman to hold any of the ITU's five leadership elected 
positions in the union's 153-year history.
    Finally, I'd like to highlight the good work the Department 
of Commerce had been doing to improve our Nation's 
cybersecurity.
    President Trump has made it clear that securing our 
communications networks is a national security priority, and 
the Department of Commerce plays a critical role in this 
national effort.
    Whether it's NIST's work on the cybersecurity framework or 
NTIA's work on multistakeholder processes, under Secretary 
Wilbur Ross' leadership, the Department is the commercial 
internet's voice within the executive branch.
    In January, the Departments of Commerce and Homeland 
Security issued a draft report on actions that can be taken to 
address the threat of botnets.
    The report outlines a positive vision for the future with 
goals and tasks that would improve the resiliency of the 
internet ecosystem.
    We know that these automated distributed threats are a 
global problem and that no single sector can fix the problem in 
isolation. But we also know there are effective tools that can 
help mitigate these threats but are not consistently used.
    The challenge of distributed threats is exacerbated by the 
volume of devices as we move to the Internet of Things, and I 
believe the greatest challenge for realizing the full potential 
of IoT will be cybersecurity.
    Many do not think of their thermostats, light bulbs, cars, 
or appliances as digital devices that may carry cybersecurity 
risks. But in the age of IoT, they can.
    If we want to promote innovation and growth, we must ensure 
that America can trust the IoT devices in their lives.
    Late last year, one of NTIA's open multistakeholder 
processes produced agreement on documents focused on IoT 
security and patching, and we continue to engage with the IoT 
and security communities to promote the security of the devices 
on which we are increasingly reliant.
    Throughout all of this work, NTIA has consistently looked 
to create as many avenues for engagement with the private 
sector as possible. That will continue under my watch.
    The communications and information sectors are the backbone 
of the economy, and they are too important not to get right. 
The United States must continue to lead as new technologies, 
including 5G, emerge, and we must continue to harness this 
growth for American businesses and American workers.
    It will take hard work and a lot of listening to maintain 
America's leadership in the communications world. That will be 
my focus as NTIA's Administrator.
    Thank you again for inviting me. I am really happy to be 
here testifying, and I look forward to your questions.
    [The prepared statement of Mr. Redl follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs.  Blackburn. We thank the gentleman for the testimony. 
Thank you so much, and keeping on time today. This is a good 
thing. Off to a good start.
    I want to yield myself 5 minutes for questions and use this 
time--I've just got two questions I want you to go a little bit 
further on in your explanation.
    As we are continuing this transition to Next Gen 9-1-1 and 
looking at the PSAPs across the country that are responsible 
for their service areas with oversight from their State, I want 
you to talk a little bit more about how NTIA is going to help 
facilitate a successful nationwide transition to the Next Gen 
9-1-1 and then also, as looking at the money, how you are going 
to make certain that these Federal dollars are pointed and 
explicitly used, and then I am going to come to you for a 
second question on IANA.
    So, short responses welcome.
    Mr.  Redl. Thank you, Chairman.
    On Next Generation 9-1-1, as you're aware, this is a shared 
responsibility that NTIA has through our coordination that we 
work together with our colleagues at the National Highway 
Traffic Safety Administration.
    NHTSA and NTIA have been working over the last year to put 
together a grant program that was envisioned by the Middle 
Class Tax Relief and Job Creation Act of 2012.
    We are in the final stages of coordinating that process 
through the executive branch and are optimistic that we will be 
able to have those grants out to companies and groups that are 
working on 9-1-1 policy by the end of this calendar year.
    So we are real excited about moving forward on this. There 
is--I believe it's $115 million that was allocated for this 
purpose in middle-class tax relief, and we are getting ready to 
do the grant program that Congress asked us to do.
    Mrs.  Blackburn. Excellent. We appreciate that, and I will 
tell you we have heard from several of our local governments 
wanting--as they are looking at revamps or where they may have 
voids in their system and especially as you look at public 
safety, school safety, things of that nature, they are curious 
as to what that process and that time line is going to be. So 
good communication on that is going to be helpful.
    You touched on the IANA transition. So if you will 
elaborate a little bit more about that transition and how you 
see it going and what you think next steps are going to be.
    Mr.  Redl. Sure.
    The IANA transition is complete. It was completed, and at 
this point the U.S. Government's role in IANA is limited to our 
function as the U.S. representative on ICANN's Government 
Advisory Committee.
    I know a lot has been made about what commitments were made 
and what my personal opinions are on the IANA transition. So I 
appreciate the opportunity to sort of clear the air.
    I made my personal opinion known in my confirmation 
hearing, which I think it would be very difficult to put the 
genie back in the bottle on ICANN.
    ICANN is out there engaging in doing the IANA functions as 
envisioned through the transition. But my personal opinion 
certainly shouldn't carry the day as the opinion of an entire 
Federal agency.
    So in the confirmation process, in my conversations with 
Senator Cruz and Senator Lee, I committed to a process to 
looking at these things as agencies are supposed to, to ask 
questions and seek expert input and formulate an opinion of the 
Administration based on feedback from experts in their fields.
    I continue to be working with Secretary Ross' office in 
trying to find a way to get more feedback on this. But in the 
meantime, we are, at NTIA, continuing to serve in the role that 
we are supposed to as our representative to ICANN.
    Mrs.  Blackburn. And as you look at recouping spectrum, the 
100 megahertz, you want to say just a little bit about what you 
think the potential is there?
    Mr.  Redl. I am sorry. What spectrum?
    Mrs.  Blackburn. Spectrum.
    Mr.  Redl. Just spectrum in general?
    Mrs.  Blackburn. Yes.
    Mr.  Redl. We are spending--you know, a good half of the 
people at NTIA spend all day working on spectrum issues, and, 
as this subcommittee is painfully aware, it's an issue I care a 
lot about. I spent a lot of time here as a staffer working on 
those issues.
    We were incredibly pleased to be able to make the 
announcement about 3450 to 3550 as a candidate for additional 
study, and we also continue to make progress on the 
recommendations and the requirements that are required under 
the Spectrum Pipeline Act.
    It's by no means the only band we are looking at, and 
certainly we are continuing to look across the entire 
electromagnetic spectrum at ways to make sure we are both 
meeting the mandate to make commercial services spectrum 
available but protecting Government incumbent operations and 
their critical missions.
    Mrs.  Blackburn. The gentleman yields back.
    And Mr. Doyle, you're recognized for 5 minutes.
    Mr.  Doyle. Thank you, Madam Chair.
    I am concerned about the FCC. It seems they have so 
drastically walked away from their role of protecting American 
public's communication networks from cyberattack. I think the 
FCC's failure in this area is part of the reason we saw that 
bizarre 5G nationalization memo come out of the National 
Security Council.
    Administrator, putting aside the prescription put forth by 
that memo, can you agree with the diagnosis that the Government 
must be doing more to secure our networks and the supply chain 
for 5G technology, particularly in light of the recent 
revelations about vulnerabilities to currently deployed LTE 
networks?
    Mr.  Redl. Ranking Member Doyle, I thank you for the 
question.
    Yes, I can agree with that, and I think the President has 
made clear that he also would agree that we need to do more.
    The President's national security strategy listed 5G 
security as a national security threat and so, across the 
Federal Government, we are all trying to coordinate defined 
ways to push security to the forefront to continue to make 
security of our communications networks a priority.
    Mr.  Doyle. I know during your confirmation that you made a 
commitment to Senator Cruz to start a process of reevaluating 
the ICANN transition, as you stated early. I just want to be 
certain you did not agree to any specific outcome of the 
process, just that you would start a process?
    Mr.  Redl. That's correct.
    Mr.  Doyle. And can you also just commit to the bipartisan 
leadership of this committee that you'll just keep us apprised 
of any process NTIA might be running on revising ICANN 
transition?
    Mr.  Redl. Of course we will be responsive to the 
committee.
    Mr.  Doyle. Thank you.
    At the beginning of this Congress, every Democratic member 
of this committee introduced the LIFT America Act to help 
promote secure and resilient infrastructure for the American 
people.
    Title I of the LIFT America Act would allocate $40 billion 
to NTIA to build out broadband to 98 percent of the country. 
One thing that is not explicitly included in the LIFT America 
Act is grantmaking authority for the NTIA.
    In your view, should we include grantmaking authority for 
the NTIA and the broadband deployment program in the LIFT 
America Act?
    Mr.  Redl. At NTIA, we have been looking, as part of the 
administration's process of coming up with a plan for 
infrastructure, at all the ways that we can help to bring 
broadband infrastructure to every corner of this country.
    You know, certainly, I would never say that we should not 
have every tool available in the toolkit, and grantmaking 
authority is one of those tools.
    If Congress were to give us that authority, then certainly 
we would make the best use of it.
    Mr.  Doyle. So NTIA's Institute for Telecommunication 
Sciences is instrumental to your mission of coordinating 
Federal spectrum use and working with Federal stakeholders on 
clearing bands and sharing them.
    Do you believe that ITS has sufficient funding for that 
mission considering the drive for more sharing in Federal 
bands, as the case is with CBRS band?
    Mr.  Redl. You know, Mr. Doyle, I am particularly proud of 
the work that ITS does. I think they are a really unsung part 
of the Federal Government.
    The hard work they do on basic R&D, on spectrum 
interference, and on the electromagnetic interference is a 
critical part of what we do.
    They work tirelessly and are a critical part of making sure 
that as we look to repurpose more spectrum that we have 
accurate and actionable data on how Federal and non-Federal 
systems will work together.
    I certainly would welcome support for what they do. It's a 
critical part of our hard work, and thank you for your 
recognition of that.
    Mr.  Doyle. Thanks.
    As I mentioned in my statement, I think NTIA has done good 
work in bringing stakeholders together from inside and outside 
of Government to address these complex and emerging topics.
    Do you plan to continue that work and, if so, what are the 
topics that you plan to address?
    Mr.  Redl. So we are in the process of figuring out how 
best to engage on all of these topics with the private sector. 
But, as I mentioned in my opening statement, we think that 
engagement with the private sector is what NTIA really brings 
to the table as a value add.
    We have had a lot of success in bringing stakeholders 
together and finding ways to get to yes. Under my tenure, I 
plan to continue finding as many ways as possible to get the 
private sector on board with Government priorities and have 
them be done in a way that drives consensus.
    Mr.  Doyle. Thank you. I wish you well.
    Mr.  Redl. Thank you, sir.
    Mr.  Doyle. Madam Chair, I yield back.
    Mrs.  Blackburn. Gentleman yields back.
    Mr. Walden, you're recognized for 5 minutes.
    Mr.  Walden. Thank you very much, Madam Chair.
    In its fiscal year 2019 budget request, NTIA asked for 
congressional authorization to negotiate leases with private 
entities to expand their access to Federal spectrum. It's a 
novel idea.
    Can you elaborate on how NTIA leases would differ from 
traditional licenses, and should a leaseholder have an 
expectation of automatic renewal of a lease?
    Mr.  Redl. Thank you, Mr. Chairman.
    The leasing option is a particularly interesting tool that 
we are trying to bring to bear on this challenge. We all know, 
in this subcommittee, that clearing is still the gold standard, 
and the law is clear that NTIA needs to focus on clearing as 
its first option.
    But there are some bands that Federal users are in where 
clearing just won't be an option, where those systems are 
either specific to that frequency band or the costs to relocate 
and improve those systems would exceed any potential revenue, 
which would fail this test under the Commercial Spectrum 
Enhancement Act.
    But our mission is to try and find ways to use the spectrum 
as efficiently as possible, and so the request for leasing 
authority is a way to add an additional tool to our toolkit.
    In those areas where we can't clear, there are other 
efficiencies that could be gained through leasing. I certainly 
don't want to prejudge what those leases or what the terms 
could look like.
    That would have to be part of our consultation not only 
with folks in the industry but also with the Congress as part 
of the process.
    But we are really excited about the prospect of having more 
tools to bring to make spectrum available for commercial use.
    Mr.  Walden. And I want to commend you again on your work 
to identify Government spectrum that can be potentially cleared 
and made available for auction. It's a ongoing quest we share, 
a goal to achieve. And so I want to commend you on that.
    There has been debate in Congress for several years about 
Spectrum Relocation Fund, specifically proposals to allow the 
Office of Management and Budget to borrow money from the 
Treasury for relocation purposes prior to auction proceeds 
being deposited into the fund from an auction.
    How important is this ability to borrow funds for 
relocation purposes?
    Mr.  Redl. The SRF, the Spectrum Relocation Fund, has been 
probably the most critical tool that we have had to provide 
incentives to agencies to find ways to be more efficient.
    The changes that were originated in this committee in 2012 
and again in 2015 have made real improvements to our ability to 
make that money available to agencies so that the individual 
agencies don't bear the risk up front of the potential for 
relocation.
    We are continuing to look at ways to improve the SRF. The 
SRF is why we were able to make the announcement on 3450 to 
3550 and so many of the other projects we are working on to 
bring spectrum to market. So anything Congress can do to 
bolster the SRF is certainly welcome.
    Mr.  Walden. And speaking of auctions, as you know, in the 
RAY BAUM'S Act, we fix the issue regarding deposit of proceeds. 
How important is that fix to allowing auctions to go forward?
    Mr.  Redl. Well, that's an issue for the FCC Chairman. I 
mean, that is--Section 309(j) of the Communications Act is 
their venue and not mine.
    That being said, anything that would stand in the way of 
bringing more spectrum to market I think is a challenge that is 
worthy of tackling.
    Mr.  Walden. OK.
    Given the costs CBO believes comes with the--back to SRF 
now--policy, does it make sense to amend the SRF and grant 
greater flexibility in the same bill in which we authorize an 
additional spectrum auction? Do you need more flexibility 
there?
    Mr.  Redl. I mean, no Federal employee has every said, 
``No, I would like less flexibility in how I do my job,'' and I 
am certainly not going to be the first.
    So more flexibility is always welcomed. You know, as to 
which bill you would put that in, sir, I think that's a 
question for you all to answer, not for me.
    Mr.  Walden. I appreciate your candor on both points.
    [Laughter.]
    Mr.  Walden. And we look forward to working with you going 
forward. With that, Madam Chairman, I'll yield back.
    Mrs.  Blackburn. Gentleman yields. Mr.----
    Mr.  Walden. Before I do that, could we recognize the 
Assistant Secretary's wife, who is here--Amy Redl, right there 
in the front row. Delighted.
    Mr.  Redl. She'll be very embarrassed. Thank you, sir.
    [Laughter.]
    Mr.  Walden. Yes, I'm in trouble now.
    [Applause.]
    Mrs.  Blackburn. We are glad that she is here to witness 
this, because we know that she will critique him.
    [Laughter.]
    Mr.  Walden. As she should.
    Mr.  Doyle. I think she's good for him.
    Mrs.  Blackburn. Yes, and she's from Pittsburgh.
    Mr.  Doyle. And those Pittsburgh girls are tough.
    Mrs.  Blackburn. That's right. Making Mr. Doyle's day. OK.
    Mr. Pallone is not here, so let's go on down. Ms. Clarke, 
you're recognized.
    Ms.  Clarke. Thank you very much, Madam Chair, and I thank 
our ranking member as well, and let me add my voice to those 
who said you made a very smooth transition into this position, 
and I commend you for the work that you're doing.
    Assistant Secretary Redl, as you're aware, I introduced the 
Spectrum Pipeline Act in 2015, which later was incorporated 
into the bipartisan budget bill of 2015.
    And because my bill became law, the Federal Government and 
the NTIA gained access to new research and development funding 
to help free up Federal spectrum used by the American people.
    NTIA recently announced that it will study how to make 100 
megahertz of spectrum available for use in 5G networks. Can you 
explain how the availability of research and development 
funding stemming from my Spectrum Pipeline Act is helping to 
aid this effort?
    Mr.  Redl. Absolutely. And Ms. Clarke, I'd like to start 
off by also saying it was a pleasure to work with you and your 
staff on that Spectrum Pipeline Act in 2015.
    The availability of that funding is what's making it 
possible for us to continue driving forward. Making the 
research money available to figure out whether or not agencies 
will be able to make spectrum available has been a criterion to 
getting to yes, and Congress rightly heard the concerns from 
the agencies that that funding being provided after the work 
had been done was a real impediment to their budgeting 
processes.
    So it is part of the reason that we were able to make 3450 
to 3550 announcement as a candidate band, and thank you for 
that help.
    Ms.  Clarke. Very well.
    This month, Congressman Issa and I plan to launch the 
Congressional Caucus on Smart Cities to bring American 
communities into the 21st century through innovation and 
technological change.
    We believe that embracing smart technology will make our 
communities more sustainable, resilient, efficient, livable, 
and competitive in a world in which technology is constantly 
advancing.
    For its part, I applaud the work that NTIA's BroadbandUSA 
office to promote smart cities. This work spans both Democratic 
and Republican administrations and includes initiatives like 
providing toolkits to help communities use partnerships to 
build smart cities and hosting webcasts to help communities 
better understand why broadband is necessary for making this 
Government smarter--their Government smarter.
    Assistant Secretary Redl, in your view, why is it important 
that cities use technological advances in serving their 
constituencies?
    Mr.  Redl. I mean, I have spent my entire career trying to 
advance communications and technology. So it's a bit self-
serving, but I feel like this is an area where we have been 
able to produce a lot of gains for folks, whether they are in 
smart cities or rural areas, whether they are low income or 
wealthy, and I continue to believe that that's the case.
    I thank you for recognizing the hard work that the 
Department of Commerce is doing on these issues. I think it's 
important to note that, in addition to the hard work that the 
BroadbandUSA team is doing, our sister agency NIST is also 
doing a lot of work on smart city and really developing some of 
the standards and some of the frameworks that are going to be 
critical to this work going forward.
    Ms.  Clarke. And can you commit that promoting the growth 
of secure and resilient smart cities across our Nation will be 
a priority of yours during your time leading the NTIA?
    Mr.  Redl. We are working on it now, and we plan to 
continue working on it.
    Ms.  Clarke. Awesome. And would the BroadbandUSA office be 
able to do more projects like those I described if Congress 
budgeted additional resources for the program?
    Mr.  Redl. You know, certainly if there are more resources 
available, BroadbandUSA would continue doing more work in their 
field.
    You know, we are doing as much as we can within our budget, 
and we will continue to make the most we can to do more with 
less in that budget.
    Ms.  Clarke. Very well. And as a co-sponsor of the AIRWAVES 
Act, I am so pleased to see bipartisan support for progress on 
spectrum. I am curious if there are changes you would make to 
that bill, and are we missing any bands that you would like to 
include?
    Mr.  Redl. So the Trump administration doesn't have an 
official position on the AIRWAVES Act, but it's sort of a 
threshold matter, I would say.
    I think we are looking at NTIA across all of the Federal 
assets--all of the Federal spectrum holdings--to see where 
there are opportunities to move forward, where there are 
opportunities to be more efficient, to consolidate operations, 
and we would love to continue working with your office and with 
other Members as you look at different bands that are going 
forward.
    Ms.  Clarke. Very well. And does NTIA have any plans to 
initiate new multistakeholder processes to address some of the 
issues surrounding internet policy today? If so, what are the 
topics to be examined?
    Mr.  Redl. So we are continuing to flesh out how we are 
going to approach these issues, and as we work our way through 
the interagency process, because most internet issues, while 
NTIA has a very strong role in them, involve coordination 
across the Federal Government, we will certainly keep the 
committee apprised as we drive forward on them.
    Ms.  Clarke. Very well. Much continued success to you.
    Mr.  Redl. Thank you, ma'am.
    Ms.  Clarke. Thank you, and I yield back, Madam Chair.
    Mrs.  Blackburn. Gentlelady yields back.
    Mr. Lance, you're recognized for 5 minutes.
    Mr.  Lance. Thank you, Chairman.
    I am pleased that we were able to include Mobile Now in the 
FCC reauthorization we are considering on the floor later 
today.
    As we look to the next chapter in spectrum legislation, I 
certainly believe that the bipartisan, bicameral AIRWAVES Act 
that I recently introduced with Ranking Member Doyle is a 
fitting candidate.
    It has received wide support from both licensed and 
unlicensed industries, public interest groups, and several 
Commissioners at the FCC.
    I know that, in the executive branch, you do not take 
official positions on these pieces of legislation. But Mr. 
Redl, what are your impressions of the bill, and do you think 
that it's possible at the appropriate time that the 
administration will be able to support it, at least in concept?
    Mr.  Redl. Well, Mr. Lance, thank you for giving me the 
recognition, but I can't take a position on it. The 
administration doesn't have a formal position on the bill. That 
being said, I really applaud all the work that's being done in 
Congress and the attention that's being paid to spectrum at 
this point.
    Spectrum has always been one of those topics that have been 
incredibly important to our communications ecosystem and, 
frankly, most Americans don't pay much attention to it because 
it just works.
    We are very happy to be working with your office and with 
other offices on this committee to make sure that, as we go 
forward, we are looking across the entire electromagnetic 
spectrum at opportunities.
    If you look just a few years ago, we weren't considering 
looking at high-band spectrum. It was considered spectrum was 
no good for these kinds of purposes. And yet, now here we are 
on the cusp of 5G.
    You have companies like Starry that are out there using 
special temporary authority to provide fixed broadband over 
those frequencies at gigabit speeds. It's really an exciting 
time to be in spectrum policy, and we look forward to working 
with you on your bill.
    Mr.  Lance. Thank you. I want to continue to work with you 
on this issue, and I hope that we are able to bring this matter 
to fruition.
    I certainly applaud your action in identifying 100 
megahertz of mid-band spectrum for potential commercial use in 
the 3 gigahertz band.
    As you are aware, AIRWAVES has provisions dealing with 
related bands: the CBRS band and the C-band. At the same time, 
the FCC is reviewing the CBRS rules and the FCC is considering 
a notice of inquiry partly related to the C-band.
    It is my understanding that these are all important bands 
for 5G deployment. What are the opportunities in considering 
these adjacent bands for commercial use, and what are some of 
the challenges?
    Mr.  Redl. Well, I am really excited that Chairman Pai and 
his colleagues at the FCC are considering looking at 3-7 to 4-2 
of the C-band spectrum you've talked about.
    Certainly, NTIA will be taking a look at what Federal 
equities we have there and making sure that our Federal users 
that have, you know, positions on that band will be heard at 
the FCC. But it's a real opportunity for us because mid-band 
spectrum is so good for both coverage and capacity.
    And so the idea that we could make a broad swath of 
spectrum contiguously available for our Nation's 5G needs is a 
real opportunity to continue our global leadership on these 
fronts.
    The challenges are what they always are. These bands have 
incumbent users, and the FCC has a tough challenge ahead of it 
trying to find ways to balance the rights of those incumbent 
users with the opportunities moving forward.
    Mr.  Lance. Thank you, and congratulations again to you and 
your entire family, and we will continue to work with you as we 
have in the past.
    Thank you, Madam Chairman. I yield back the balance of my 
time.
    Mrs.  Blackburn. The gentleman yields back.
    Ms. Matsui, you're recognized for 5 minutes.
    Ms.  Matsui. Thank you very much, Madam Chairman, and 
welcome. It's good to see you back here in another role.
    I also want to talk about the spectrum. As you know, 
Representative Guthrie and I have been focused on initiatives 
for Federal entities to share or relocate their spectrum-
dependent systems allowed for commercial use.
    Increasing the probability of sharing or relocating Federal 
spectrum is often a multiphase, multifaceted strategy, from 
research and development to planning to accommodate sharing our 
new spectrum assignments.
    I commend your work with DOD at identifying 100 megahertz 
of spectrum for potential repurposing for wireless. Do you have 
any thoughts on what incentives might be most beneficial for 
Federal entities, whether a uniform approach across all Federal 
entities is possible?
    Mr.  Redl. Well, thank you, Ms. Matsui.
    Thank you for the commendation on the work. I would be 
remiss if I didn't note that getting to yes on that 100 
megahertz required the hard work of a ton of folks across the 
Federal agencies.
    And that's what's interesting about doing Federal spectrum 
work, is that it is rare that there is a band where we don't 
have multiple uses across multiple geographies and multiple 
places within the time domain.
    And so every band is a unique challenge. To that end, 
providing incentives is not a one-size-fits-all approach. So, 
to the extent that Congress can continue to provide us with 
tools to address each one of these users individually and 
address their concerns with making sure their systems are not 
impacted by any potential move, we would welcome that 
conversation.
    Ms.  Matsui. OK. So there is not one approach at all, so 
there might be targeted solutions over every individual agency?
    Mr.  Redl. Yes.
    Ms.  Matsui. OK. Great.
    Making more spectrum available for commercial use and new 
technologies will be critical to ensuring we remain the global 
leader in 5G deployment.
    As you work to identify new bands that support new-
generation broadband networks, it is also important that we 
consider opportunities to use commercial bands more 
efficiently.
    I am mindful of the ongoing work towards technical 
solutions to terrestrial services in the L-band. What are your 
thoughts on how we could push forward on spectrum proceedings 
such as the L-band that protects incumbents from interference 
and accommodate new spectrum use cases?
    Mr.  Redl. So that's at the heart of what we do, and the L-
band, perhaps the most well-known example of trying to do L-
band sharing is trying to find ways for the proposal before the 
FCC for Ligado to use spectrum without adversely impacting the 
global positioning system.
    NTIA spends a lot of time working across the Federal 
agencies to try to find ways to get to yes. But getting to yes 
is going to mean finding ways to protect GPS without having to 
make drastic changes.
    We are waist deep in that, to put it bluntly, and we are 
going to continue driving forward on it. We think there is a 
lot of work that's been done to figure out the technical 
characteristics, and there is a lot of work yet to be done to 
get everybody at the table to yes. But it's something that we 
are committed to.
    Ms.  Matsui. OK. Thank you.
    I applaud the FAA's interagency Spectrum Efficient National 
Surveillance Radar, better known as SENSR, feasibility study. 
The research and development for this initiative provided under 
the Spectrum Pipeline Act is focused on consolidating existing 
surveillance radar used to track aircraft and weather.
    As you know, this initiative would make a minimum of 30 
megahertz of spectrum in the 1300 to 1350 megahertz band 
available. How could we be helpful in evaluating possible 
solutions that will make the spectrum available?
    Mr.  Redl. Well, we are currently in the process of going 
through that. We are acutely aware of the deadlines in the 
Spectrum Pipeline Act and are working actively across the 
Federal Government on the SENSR system to try and find ways to 
get to yes.
    What can Congress do? Continue to support us in this work. 
You know, we have a lot of work to do. Those are systems that 
are critically important to national security. And so your 
continued support in trying to help keep everybody at the table 
and driving towards consensus is much appreciated.
    Ms.  Matsui. So it's continued effort, particularly 
encouraging other Federal entities to look at their spectrum 
systems to evaluate where they could be consolidated, 
modernized, or otherwise allowed for sharing.
    So it's just continued work to try to find that special 
little nugget that will move us forward, then?
    Mr.  Redl. Yes. Figuring out the puzzle pieces of making 
spectrum work is what, you know, like I said, a good half of 
NTIA's employees do every day, working to figure out how to 
make all those authorizations work collectively together in a 
way that gets our national mission done but also makes spectrum 
available for commercial services.
    We appreciate the support. We appreciate the ongoing 
dialogue with this committee that has been so engaged on 
spectrum. So thank you so much.
    Ms.  Matsui. Well, thank you very much for your dialogue, 
and I do appreciate working with you. Thank you.
    I yield back.
    Mrs.  Blackburn. Gentlelady yields back.
    Mr. Latta, you're recognized for 5 minutes.
    Mr.  Latta. Thank you, Madam Chair, and Mr. Assistant 
Secretary--David--welcome back. Good to see you.
    In my role as the chair of the Digital Commerce and 
Consumer Protection Subcommittee, we have done great work on 
clearing the regulatory path to self-driving vehicles.
    We also made a clearer path for increased access to 
spectrum. It's going to be the new wireless 5G tech networks 
that drives some technology solutions supporting self-driving 
cars.
    Would you tell me how much more spectrum 5G networks we 
will need, and do you have any time frame within which we need 
to make available a certain amount of spectrum to ensure the 
advancement of self-driving cars becomes a reality?
    Mr.  Redl. Mr. Latta, I wish it was a question that lent 
itself to a simple answer, but it doesn't. We are constantly 
reevaluating how much spectrum is needed both for Government 
operations and for commercial operations, and that's the heart 
of our spectrum mandate.
    Self-driving cars are a unique mission, but they are 
another mission, and so as we look at all the things that we 
are asked to accommodate, we are working across the Federal 
Government with our colleagues at the Department of 
Transportation and certainly with our FCC colleagues to try and 
figure out ways to make this a reality.
    Most of the self-driving car systems that have been 
considered to date are a hodgepodge of different systems. We 
don't anticipate that changing.
    The spectrum at 5.9 that has been allocated to the National 
Highway Traffic Safety Administration is part of that puzzle, 
and we certainly look forward to continuing to engage with them 
to try and help self-driving cars become a reality.
    Mr.  Latta. OK. Well, thank you.
    Also, with tax season upon us and fraudulent filings on the 
rise, I've been concerned with an issue faced by a lot of the 
certified public accountants out there in how the Internet 
Committee for Assigned Names and Numbers manages the award of 
generic top-level domains.
    I've highlighted one particular example that is one of my 
concerns, which involves how CPA organizations were not awarded 
the dot CPA domain.
    Would you share any thoughts or insights about how ICANN 
manages the domain name process, and if you are able to rise 
your general or specific concerns or observations with them 
directly?
    Mr.  Redl. Sure, and thank you, Mr. Latta. I am very 
familiar with the dot CPA issue, both from my time here and now 
my time at NTIA.
    Certified public accountants had applied through ICANN's 
process for the generic top-level domain dot CPA, and that has 
been an ongoing process for quite some time.
    My staff is engaging actively with the CPAs to try and find 
a resolution. In our role on the ICANN Governmental Advisory 
Committee, we will stand up for U.S. interests, and, in this 
case, this is one of those interests.
    ICANN is holding one of its meetings next week in Puerto 
Rico. I plan to be in attendance, and I have a scheduled 
meeting with the CPAs to try to see if we can figure out a way 
to get this resolved through the ICANN process as expeditiously 
as possible.
    Mr.  Latta. That would be great. Thank you.
    In terms of the next steps in broadband mapping, what do 
you propose can be done about identifying locations unserved by 
broadband service?
    You know there has been a lot of work done by this 
subcommittee and also with the working group concerned about 
broadband out there, especially in our rural areas.
    Have you identified other Government agencies' processes or 
public utilities that can help you geolocate in those target-
specific unserved addresses or locations to better understand 
the demand in those more remote parts of our country?
    Mr.  Redl. Sure. So the President's request for additional 
funding for NTIA for mapping is not just to produce a map but 
also to produce an assessment of broadband capabilities and 
provide a tool for policymakers both here on the Hill and 
across the executive branch to better target the funds that are 
allocated to broadband.
    Our approach, should we have the additional funding, would 
be to not only look at the existing data sets but go to try and 
find additional data sets. By overlaying that data across 
different commercial products, you're able to take a look and 
see where there are discrepancies, and typically that is the 
way you figure out where you need to do validation.
    We have had a lot of experience doing validation of data 
and we have an extensive set of relationships through our State 
Broadband Leaders Network with folks at the State and local 
level who have continued the mapping work at the State level 
throughout the last couple of years.
    Minnesota is a great example of that. They've continued 
doing this mapping work, and incorporating that data--that 
boots-on-the-ground validated data--would be part of what we 
would like to do if we are, again, put into the job of doing 
mapping.
    Mr.  Latta. Well, thank you. And, again, it's really 
important as you go forward to always remember that, looking at 
the unserved versus the underserved, because there is a lot of 
our areas in our districts that are totally unserved right now. 
So I appreciate that.
    Madam Chair, my time has expired and I yield back.
    Mrs.  Blackburn. Gentleman yields back.
    Ms. Eshoo, you're recognized for 5 minutes.
    Ms.  Eshoo. Thank you, Madam Chairwoman.
    Welcome, Mr. Administrator. It was David. Now it's Mr. 
Administrator.
    [Laughter.]
    Ms.  Eshoo. It's great to see you here. Congratulations to 
you, and it's wonderful that your wife is here as well. I can 
see the pride in her smile.
    You know that the years that you've been with us on the 
committee that I have pressed and pressed and pressed on 
unlicensed spectrum because that really is the platform for 
innovation.
    So, in my view, it's important to have unlicensed spectrum 
in low, mid, and high bands the same way we do for licensed in 
low, mid, and high bands because they have different use cases, 
and this is the case with Wi-Fi operations.
    Is NTIA studying any bands below 6 gigahertz that are 
promising for unlicensed, giving more valuable bands below 6 
gigahertz away for commercial use?
    I mean, I think that we need to know what your thinking is 
on that. And are you willing to commit to that some of this 
sub-6 gigahertz bands will be designated for unlicensed?
    Mr.  Redl. So, I mean, I'd love to be able to make that 
assurance, but NTIA doesn't make those calls. So I think it's 
important to note that----
    Ms.  Eshoo. Who does? Who does?
    Mr.  Redl [continuing]. That the decision of whether 
licensed or unlicensed allocations are made is an FCC 
determination. What we are doing at NTIA is looking at all of 
the Federal frequencies and trying to find ones for which we 
can make commercial use available and to non-Federal use 
available. We are agnostic about this.
    Ms.  Eshoo. Is there any consultative role that you play 
with the FCC on this?
    Mr.  Redl. Of course, and as the----
    Ms.  Eshoo. And so what would your conversation sound like?
    Mr.  Redl. So we haven't taken a firm position. But I think 
you know personally that I have said before that we believe in 
a balance of license and unlicensed, and that's the way that 
NTIA has looked at things in the past.
    Going forward, the upside to the fact that we are now 
looking at a broader swath of spectrum than we were in the past 
is that one of the biggest challenges we had--do we make it 
licensed, or do we make it unlicensed?--was scarcity.
    As we look at high-band spectrum, we have so much more 
available that it becomes easier to find ways to make some 
available for both uses, and I certainly think there is a role 
for both as we go forward, and we will continue to consult with 
the FCC and make sure that we are pushing that forward.
    Ms.  Eshoo. Well, it sounds somewhat promising. Somewhat.
    [Laughter.]
    Ms.  Eshoo. I have made it a point in my district to meet 
with the PSAPs throughout, you know, each community, and I did 
that I think a week or 10 days ago in a smaller community in my 
congressional district, but nonetheless the importance of 
that--of that center, it was very interesting to me when I 
asked them if they have had any communication from the Federal 
Government on anything. And you know what? They haven't. They 
simply--they said there isn't any outreach. There isn't 
anything.
    And I think that we need to be in communication with them. 
I know it's been 6 years since the Middle Class Tax Relief Job 
Creation Act was signed into law. There hasn't been a single 
grant that has been put out there.
    But they need these resources. They need these resources. 
They need a partner. They need a Federal partner.
    Now, I know that someone else asked about it, and that you 
went through when you anticipate the grants being granted?
    Mr.  Redl. Yes, ma'am. So I've been on this job for a 
little over three months and I know how much work you 
personally put into those provisions in the Middle Class Tax 
Relief and Job Creation Act, and we have made it a priority to 
get that moving.
    Ms.  Eshoo. Now, OMB has to--it's over at OMB now?
    Mr.  Redl. So, yes, it is in the clearance process. So it's 
not exclusively within our purview, as you know. It's a shared 
responsibility between the Department of Commerce and the 
Department of Transportation.
    So Commerce and Transportation have been working to clear 
both of their respective processes, and then the document has 
to be cleared by OMB.
    We are in the process of making that happen, and we are 
hopeful we will get it out the door very soon.
    Ms.  Eshoo. So what's the next step after very soon?
    Mr.  Redl. The next step after that is that will establish 
rules for a grant program, and we will be then taking 
applications for grants from interested parties to improve Next 
Generation 9-1-1 services.
    Ms.  Eshoo. Are you going to go out there and kind of wave 
the flag and say, ``We have $115 million''--which is not a lot 
of money when you divide it by 50 States and all the PSAPs. We 
have, what, 6,000, approximately, PSAPs----
    Mr.  Redl. Yes.
    Ms.  Eshoo [continuing]. In the country? I think we need to 
really be aggressive about this. But you know what? If they 
don't hear from us, they need to be prepared to put in for 
whatever they are thinking they need to put in for, and I think 
that you need to take a lead on that.
    I didn't--I left this PSAP encouraged because of all the 
things that they are doing. They are working so hard and 
working very smart. But that they don't know that anything 
exists 3,000 miles away is not very good.
    So I think that you have--there is some work to be done on 
that. And I think that today--if I might say this--that this 
afternoon we are going to be taking up the RAY BAUM'S Act--you 
know, how life goes on. He's passed on. He would be very proud 
that you're here today in your new role, and I'll just end on 
that note.
    Thank you.
    Mrs.  Blackburn. Gentlelady yields back.
    Mr. Guthrie, you're recognized.
    Mr.  Guthrie. Thank you, Madam Chairman, and that is a 
great tribute to Ray in the RAY BAUM'S Act, and then an acronym 
to come up with the RAY BAUM'S Act that is just--it's 
important, and I know he would be so proud, as just to finish 
what my friend from California was saying.
    Speaking of another friend from California, Ms. Matsui, so 
Doris and I--Ms. Matsui and I have worked on the Federal 
Spectrum Incentives Act to provide financial incentive to 
Government agencies to relocate or share their spectrum 
licenses, which you're very familiar with, and given that one 
of the incentives included in the bill which would allow 
agencies to use funds to offset sequestration, and now that we 
have a 2-year budget agreement, are there ways to consider 
updating the bill and whether in terms of how auctions proceeds 
could be used or otherwise--for proceeds to be used.
    And what about allowing agencies to use funds to purchase 
equipment or other things? How would you just touch on updating 
that act?
    Mr.  Redl. Mr. Guthrie, you know, I think--as I said 
earlier, having as many tools as possible and reducing the 
friction as much as possible for Federal agencies that are 
being asked to relocate their systems while maintaining their 
existing mission profile is something that we should always be 
considering.
    The challenge with relocating these systems is, it's not 
like you can simply shut them off and stop doing the job. These 
agencies have to maintain mission readiness throughout the 
entire process. It's a long process, and it's a long and costly 
process.
    So anything we can do to make sure that we are not 
burdening our agencies unduly is welcomed.
    Mr.  Guthrie. All right. Thank you.
    And one other issue that we have discussed today is the 
National Broadband Map. I know you talked some of that with Mr. 
Latta.
    First, I am glad to see a budget request that includes 
mapping, as I believe NTIA is the best place to house it. In my 
district, census blocks are too big to perform 477 data to be 
useful because in the rural areas, even a few miles of my city 
of Bowling Green, which is the home of Connected Nation, who's 
represented here as well, which is a growing southern--like one 
of the new South growth cities--but if you could just--fastest 
growing city in the State--if you just get right outside of our 
city limits, there is access to broadband.
    Some development and being able to move forward is kind of 
limited to broadband. That's a big county issue with our County 
Fiscal Quarter Counting Commission, as most people call it. And 
so it's a big concern not just in rural rural Kentucky but just 
outside of growth Kentucky.
    So there is a lot of information we need. Census maps--
census tracks just aren't enough. I know you talked with Mr. 
Latta, but have you talked about getting granular service 
availability data from providers?
    Mr.  Redl. So, in addition to what we would like to do if 
we were given the new appropriation with additional data sets, 
NTIA recently filed comments at the FCC expressing the 
administration's position on how to improve the FCC's 477 data, 
and these are the issues we looked at.
    And, essentially, our comments broke down to say there are 
two things you need to improve. You need to improve accuracy 
and you need to improve granularity. But also, we need to 
balance the need for increased accuracy and granularity with 
the burden that we are placing on filers. And I don't envy the 
FCC in striking that balance, but we need more accurate and 
more granular data.
    Mr.  Guthrie. All right. Thank you.
    And finally, regarding high-band spectrum, are NTIA and the 
administration generally on board with Chairman Pai's recent 
announcement that the commission will move forward with 
auctions in the 24 to 28 gigahertz bands?
    Mr.  Redl. We are excited about more spectrum being made 
available to bring to bear on our broadband challenges. I mean, 
the President has made it very clear that getting broadband out 
to rural America is a priority, and we think that the high-band 
spectrum is one way for us to do that. The potential for fixed 
wireless in those bands could be a real game changer in rural 
America.
    Mr.  Guthrie. All right. Thank you, and I'll yield back my 
time.
    Mrs.  Blackburn. Gentleman yields back.
    Mr. Kinzinger, you're recognized for 5 minutes.
    Mr.  Kinzinger. Well, thank you, Madam Chair, for yielding.
    I want to congratulate you on your job. It's great. It's 
good to have you here. I enjoyed meeting with you in your new 
capacity back in February, and I appreciate that you've been 
making the rounds with members of this committee to discuss 
priorities.
    I am also going to try to get through a number of questions 
with my time. So if you can keep your answers as brief as 
possible, that would be great.
    I'd like to discuss the February 26th announcement that 
NTIA and the Pentagon have identified a 100 megahertz band of 
spectrum. It's a 3450 to 3550 band that could be potentially 
repurposed to spur commercial wireless innovation, including 
advanced wireless services.
    I am all for opening up spectrum for commercial use. But as 
a military guy myself, I tend to look at things through a 
national security lens. So I would want assurances from the 
Pentagon that introducing commercial operations to this band of 
spectrum would have no negative effects on defense.
    First, will you reaffirm your commitment to ensure that the 
military communications operating in this band must be a 
priority?
    Mr.  Redl. Absolutely.
    Mr.  Kinzinger. And now, in the event that the engineering 
study shows that this is feasible and there will be no 
degradation of military operations, I'd like you to briefly 
describe what sorts of commercial ventures we might see in this 
band.
    You know, might we, for instance, see spectrum-sharing 
technologies that essentially allow for dual use while 
prioritizing Government ops?
    Mr.  Redl. So that's the phase we are in now: figuring out 
what the options will be once we figure out through the 
engineering studies what the profile of existing DOD systems 
will look like in a post-transition.
    We would be working with the FCC to figure out how this 
fits into the larger spectrum picture. You know, this spectrum 
is immediately adjacent to the 3.5 gigahertz band, which we are 
in the process at NTIA of certifying the systems to make the 
sharing in that band possible.
    We will work with the FCC going forward to figure out what 
the right play is to make that available in the best way 
possible.
    Mr.  Kinzinger. The extensive Federal and non-Federal use 
of this band makes it an ideal candidate for spectrum sharing. 
Will NTIA and the DOD focus on dynamic spectrum sharing as a 
way to maximize its use? You basically kind of answered that.
    As you know, this 100 megahertz band is immediately 
adjacent to the Citizens Broadband Radio Service, and the FCC's 
rules for CBRS are almost finalized now.
    If the NTIA and DOD move forward to open this band, it 
would save time and money to simply extend the CBRS rules to 
the adjacent band rather than go through a potentially long 
rulemaking process.
    In order to accelerate its commercial use, will NTIA and 
DOD consider applying the same rules under the FCC's Part 96 of 
the CBRS to this 100 megahertz band?
    Mr.  Redl. So, ultimately, the decision of how the non-
Federal use would be done will be done through notice and 
comment at the FCC. But we will participate in that process.
    Mr.  Kinzinger. I know at least one company that's worked 
closely with the DOD on this band tier structure, and I think 
it's safe to say that, with the industry assistance, this 
process can be much less painful.
    Do you agree that industry can help accelerate and ease the 
transition process for NTIA and the DOD to enable shared use of 
this band?
    Mr.  Redl. Absolutely. We have got two advisory committees 
at NTIA that are on both sides of this equation to help us 
out--the Commercial Spectrum Management Advisory Committee for 
looking at the commercial side of the equation, the 
Interdepartmental Radio Advisory Committee on the Government 
side--and those two advisory committees give us at NTIA a more 
complete picture of both what the Government users need and 
what spectrum users on the commercial side are looking for.
    Mr.  Kinzinger. OK. And I'd like to briefly discuss the 
future of spectrum both in terms of what we can do with the 
spectrum that's currently being utilized as well as ultra-high 
and super-high frequencies that are not yet widely utilized in 
commercial ventures.
    In your opinion, what's the most efficient way to deploy 
the spectrum that's already more accessible today? Would it be 
sharing, clearing, or some other means?
    Mr.  Redl. So, when it comes to reallocating Federal assets 
to non-Federal, Congress has been very clear that we need to 
prioritize clearing over sharing.
    But that doesn't mean that we don't look at all potential 
tools that we have in our toolkit, and sharing and the request 
we made for leasing authority are part of those potential tools 
that we could bring to bear.
    Mr.  Kinzinger. And how can we make the progress gap in 
developing and deploying 5G?
    Mr.  Redl. Yes. I think the work that Congress is doing to 
continue to press the issue and make more spectrum available is 
particularly helpful. But I think what we are really going to 
have to do as a country to see this move forward is continue 
pressing the private sector on standards.
    Standards, at the end of the day, are where these fights 
are won and lost and we, as a country, have been a leader in 4G 
standards. We need to continue pressing forward to be a leader 
in 5G standards.
    Mr.  Kinzinger. And do you believe that we will still be 
fighting over the same spectrum bands in 20 years, or do you 
think the technology will allow us to either share better or 
unlock higher and lower frequencies to spread things around?
    Mr.  Redl. I think it's yes to both. I think we will still 
be fighting over these spectrum bands in 20 years, but I think 
we will also have new technologies to bring to bear.
    I mean, just in the last couple of years we have moved up 
into the spectrum frontiers in Horizon's portion of the FCC's 
work, and, you know, five or 10 years ago that was unthinkable.
    So at NTIA we continue to constantly reevaluate and figure 
out what technology has done to change our underlying 
assumptions.
    Mr.  Kinzinger. And very last question: Does the NTIA have 
the authorities necessary to operate in the current environment 
or in these future scenarios so that it can quickly deploy the 
use of spectrum?
    Mr.  Redl. The only thing is the request that we made in 
the President's fiscal 2019 budget with respect to leasing 
authority.
    Mr.  Kinzinger. All right. You did a great job. Thank you 
for getting through so many questions. I yield back.
    [Laughter.]
    Mrs.  Blackburn. Mr. McNerney, you're recognized for 5 
minutes.
    Mr.  McNerney. Well, I thank the Chair, and I thank the 
witness. I am sorry I missed some of your testimony. I had to 
step out.
    But I am concerned about the FCC's reluctance to embrace 
cybersecurity as an issue. I think we have serious problems 
with cybersecurity, and then, when a significant portion of 
Government experts are told to stand down, I think we are 
asking for trouble.
    Can you commit that, in your role as head of NTIA, you will 
help protect our Nation's networks?
    Mr.  Redl. Absolutely, and we are continuing to do that 
now. The President, as you know, last year issued an executive 
order asking Commerce and Homeland Security to look at 
distributed threats like botnets, and we are actively working 
with our sister agency NIST and with Homeland to put together a 
report to the President on that issue.
    Mr.  McNerney. You have the resources that you need?
    Mr.  Redl. I mean, everyone always would like more 
resources. But yes, we are doing very well with the resources 
we have, and certainly we are looking forward and hope that the 
President's fiscal '19 budget will give us the money that we 
need.
    Mr.  McNerney. OK. Well, following the rise in the 
disruptive IoT cybersecurity attacks, I introduced the Securing 
IoT Act.
    NTIA has been active on this issue, and I understand that 
in recent meetings of NTIA's multistakeholders working group on 
IoT security upgradeability and patching that was held back in 
November. Can you update us on the progress of this 
multistakeholder working group?
    Mr.  Redl. Sure. That working group produced documents that 
were consensus documents from the stakeholders to address some 
of the concerns related around patchability and conveying that 
information to consumers.
    We are really proud of that work. We think it's a real good 
start in terms of bringing security to bear on IoT, and I know 
that IoT security is a priority for Secretary Ross across the 
entire Department.
    Mr.  McNerney. Well, what meaningful advances in IoT 
security can we expect?
    Mr.  Redl. Stay tuned. We are in the process of working 
that out. You know, part of the interesting aspect of the 
multistakeholder process is you don't always know what will 
come next. The stakeholders have a way of asserting themselves.
    Mr.  McNerney. Well, I know that NTIA has also published a 
draft report on how to protect against botnets. You mentioned 
that a little earlier. How do you expect that the findings and 
recommendations from this report will be used in practice by 
Government and industry?
    Mr.  Redl. We will have to see. We are in the process now 
of incorporating comments to the draft report. Our draft report 
was put out in January, and both NTIA and NIST have been 
seeking comment from stakeholders to improve the draft in 
anticipation of deliver to the President in May.
    What happens to the document and the recommendations 
therein will be up to the President, and we are hoping to 
continue working on it.
    Mr.  McNerney. It would be nice to have some mechanism to 
ensure that Federal agencies and Government contractors follow 
these recommendations.
    Mr.  Redl. Sure would.
    Mr.  McNerney. I want to change direction a little bit. I 
want to make sure that my constituents have access to broadband 
and that that access is affordable. How can NTIA's BroadbandUSA 
program help?
    Mr.  Redl. So BroadbandUSA has been continuing to do 
outreach and maintain relationships with the States and with 
local governments through the State Broadband Leaders Network, 
and we have been trying to help produce best practices for 
communities to get investment from private-sector entities 
because the economics of broadband are typically the biggest 
challenge to deployment.
    We continue to maintain that capability and work with our 
State colleagues, and the President's request for an additional 
$50 million to provide an assessment and map of broadband 
availability I think would certainly aid policy makers both 
within the executive branch and certainly up here on Capitol 
Hill in trying to define what the unserved parts of our country 
really look like.
    Mr.  McNerney. I am going to change directions again. Does 
the NTIA have jurisdiction over drones?
    Mr.  Redl. So NTIA has jurisdiction over some of the issues 
related to Federal counter UAS activities, and that has played 
out certainly on Capitol Hill over the last couple of years. 
But, with respect to drones, I think the majority of that work 
is done interagency with our colleagues at the FAA.
    Mr.  McNerney. OK. Is there a broad outline of drone 
regulations at NTIA? Is there some sort of regulatory structure 
that can help guide where we are going to be going with this 
technology?
    Mr.  Redl. I don't have one prepared for you today, but I'd 
certainly be happy to work with your office going forward to 
figure out what the right steps are going forward for us on 
drone security.
    Mr.  McNerney. I mean, you can see drone security is a huge 
potential issue for us. I mean, they could fly a drone over the 
Capitol and blow us up any time they want. So we need to move 
forward aggressively on that, in my opinion.
    Mr.  Redl. Yes, sir.
    Mr.  McNerney. Thank you. I yield back.
    Mrs.  Blackburn. Gentleman yields back.
    Mr. Johnson, you're recognized for 5 minutes.
    Mr.  Johnson. Thank you, Madam Chair, and welcome, Mr. 
Assistant Secretary. That has a nice ring to it. Just kind of 
rolls off of there. So welcome.
    Last week, the FCC released a map showing areas across the 
country eligible to receive support for 4G LTE service over the 
next 10 years as part of phase 2 of the Mobility Fund.
    The map almost immediately came under attack for 
inaccurately portraying areas as covered, including parts of my 
district, that were not. This continues to raise questions as 
to whether the FCC should be in charge of broadband mapping, 
wireless or otherwise.
    My bill, the MAPPING NOW Act, would move Federal broadband 
mapping away from the FCC back to NTIA. So, Mr. Assistant 
Secretary, what will the NTIA do to ensure broadband maps are 
accurate?
    Mr.  Redl. Mr. Johnson, as a threshold matter, I want to 
applaud the FCC for what it's been doing on mapping. Certainly, 
any effort to bring more accurate data to the way we deploy our 
resources as a Federal Government should be welcomed, and I 
also thank you for your leadership in making mapping a priority 
for discussion here in Congress.
    At NTIA, we spent a lot of time working on ways to define 
the need for broadband, where those problem areas are, and we 
are happy that the President had asked for an additional $50 
million for us to move forward with that.
    That $50 million, if it is brought to bear on our mapping 
challenges, will be used not only to produce a map but to do an 
assessment of the data in that map. And bringing together 
multiple data sets and figuring out why they don't 100 percent 
line up should give us a better idea of the real need we have 
in rural America. Anyone who's spent any time in rural America 
knows we have a real need for broadband infrastructure in rural 
America.
    Mr.  Johnson. Sure, and I want to echo what you said. I 
certainly applaud the work that's been done up until this 
point, but we got to take it to a new level. I mean, we have 
got--the urban/rural divide is a very real phenomenon. We have 
got lots of intellectual capital that is not being recognized 
because young people can't get access to the internet for their 
school work, businesses can't come in to rural areas because 
they can't set up operations because they can't communicate 
with their customers, their suppliers, et cetera, so I applaud 
that work as well, and I agree with you. But it's time to take 
this to the next level
    So you had talked about some of the things you would do, 
but what strengths does NTIA bring to the mapping efforts over 
what's currently being done at the FCC?
    Mr.  Redl. I think a real strength we bring to the table is 
our existing relationships with the State and local 
governments.
    The BroadbandUSA group at NTIA has spent the last few years 
continuing to cultivate our State Broadband Leaders Network, 
and these are officials within State and local and county 
governments who spend their time thinking about how to improve 
the broadband situation, and it's yielded real results for us 
in terms of States that have been willing to take on the 
difficult challenge of maintaining these maps and getting good 
data.
    As I mentioned earlier, Minnesota is a great example of a 
State that has continued to push forward and use State 
resources to produce good, actionable data. I think it's those 
relationships and our ongoing work with them--we had our State 
broadband leaders here in town just a few weeks ago to explore 
ways to continue working together between the different State 
and Federal entities that are engaged here. It's a real asset 
for us.
    Mr.  Johnson. Great. Great.
    Shifting gears just a little bit, a lot of discussion has 
focused on high-band spectrum and how NTIA can help accelerate 
the U.S. in deploying 5G. But my constituents are still 
struggling to get 4G, or even to sustain a phone call driving 
down the highway. So, Mr. Assistant Secretary, is NTIA is 
looking at lower bands that could be freed up for commercial 
use?
    Mr.  Redl. So the announcement of 3450 to 3550 I think is a 
primate candidate for the kind of thing you're talking about. 
It's mid-band spectrum that provides a good mix of coverage 
versus capacity availability, and hopefully we will be able to 
drive forward and get those studies completed so that we can 
bring that to market as soon as possible.
    But that's the kind of work we are doing to bring spectrum 
to market to meet actual, real-world demands.
    Mr.  Johnson. OK. And one final questions in the last 30 
seconds. A multiagency group that includes NTIA is exploring 
the possibility of making changes to the FAA's long-range 
radars operating in that band and relocating them to another 
band. What's the status of that effort to free up the 1300 to 
1350 megahertz band? Is that process moving in a reasonable 
time frame?
    Mr.  Redl. The process is moving in a reasonable time 
frame. Our Interdepartmental Radio Advisory Committee, which is 
the group that works across the U.S. Government to make sure 
that Federal equities are respected and that our missions are 
maintained, are spending a lot of time trying to figure out how 
to make that system work in a smaller footprint or in a 
different band.
    I am pleased with the progress. We are going to continue to 
push forward. It's a real priority for us.
    Mr.  Johnson. Great.
    Madam Chairman, I yield back.
    Mrs.  Blackburn. Yields back.
    Mr. Long, you're recognized for 5 minutes.
    Mr.  Long. Thank you, Madam Chair.
    Last week, the FCC announced that it plans to vote on an 
item streamlining the process of small cell deployment at its 
March meeting.
    Is the administration supportive of this effort, and what 
is NTIA doing to work with Federal agencies to streamline the 
process for facilities, deployment on buildings, and land 
administered by and managed by the Federal Government?
    Mr.  Redl. Mr. Long, I appreciate your asking. It's an area 
we have started working really hard on in the last couple of 
weeks.
    The President has tasked the broadband interagency working 
group, which NTIA co-chairs with our colleagues at the Rural 
Utility Service, with looking at three specific work streams 
that could bring Federal assets to bear on the challenge, that 
could streamline permitting for broadband projects, and ways to 
look across the entire Federal Government at different funding 
programs and ensure that they are working together and 
complementing each other as we try to bring broadband to every 
corner of the country.
    Mr.  Long. What are some of the lessons learned from 
previous efforts to clear Federal users from the spectrum band?
    Mr.  Redl. So the interesting thing is that this is an area 
that I think is a great case study in how we have taken lessons 
learned and Congress had incorporated them into legislation.
    The information we learned in AWS-1 in 2007 was then 
incorporated into changes to the Spectrum Relocation Fund in 
2012. After 2012, we learned that there were some challenges 
with making funding available to agencies, and Congress made 
another change in 2015 to make that funding available in a more 
streamlined process.
    It's an iterative process, and it gets better every time. 
So we thank you for all of the support in trying to make this 
as easy as possible.
    Mr.  Long. Well, you're talking about Congress making 
changes. What should we, this committee--as a committee, what 
should we be doing to assist in this effort?
    Mr.  Redl. I mean, I think you're doing it, which is 
raising the profile of the issue and----
    Mr.  Long. Could you repeat that?
    Mr.  Redl. Yes.
    [Laughter.]
    Mr.  Redl. And continue to engage with us in ways that make 
sure that we can meet the dual mandate. That's our daily 
challenge, is we know that Congress wants us to make more 
spectrum available for commercial users. But we also know, 
because we spend so much time with our Federal Government 
users, that we have to protect the critical mission that they 
are doing as well.
    So anything that Congress does to support us in making sure 
our Federal users have what they need, whether it be what they 
have now or what they will have tomorrow, while also supporting 
us and making sure we have the resources to bring commercial 
spectrum to market is always helpful.
    Mr.  Long. OK.
    As you're aware, many on this committee have consistently 
supported commonsense policy of auctioning 1675, 1680 megahertz 
for shared Government-commercial use for the past several 
years, and we are very pleased that the administration-proposed 
budgets for both of them reflect a priority in seeing this 
policy through.
    Does the FCC have everything it needs from your team at 
NTIA to move this policy forward with a notice of proposed 
rulemaking and, if so, do you support the FCC's issuing notice 
of proposed rulemaking in the coming weeks to keep the process 
moving forward?
    Mr.  Redl. It will surprise you not at all, sir, that we 
spend a lot of time working with the FCC on every spectrum band 
that could be reallocated from Federal use. And so it's an 
ongoing process, and we continue to make sure that, whatever 
the FCC needs, that we can provide.
    Mr.  Long. OK. So you do keep the process moving forward?
    Mr.  Redl. Yes. I mean, I think the question of whether or 
not the FCC has what it needs is probably a question for the 
FCC, but we stand ready to provide them with whatever they 
need.
    Mr.  Long. OK. Thank you. And I think this is a world 
record, but I yield back a minute 30.
    Mrs.  Blackburn. I cannot believe Billy Long is giving back 
time. That is a first.
    Mr. Costello, you're recognized for 5 minutes.
    Mr.  Costello. Thank you very much. I also want to thank--
congratulate Mr. Redl, but also thank him for the time that he 
spent with me in my office just yesterday.
    I wanted to focus on FirstNet. As you're beginning your 
buildout, what are you doing to make sure that we get the 
National Public Safety Broadband Network up and running as 
quickly as possible? And the other piece of this, just in terms 
of getting it up and running, is do you foresee any roadblocks, 
particularly regarding interoperability?
    Mr.  Redl. So, in terms of getting things rolling, I know 
that FirstNet is currently working hard to get Task Order 4 out 
to AT&T, and Task Order 4 is what will start the process 
whereby AT&T begins to build out the State plans that were 
provided to each Governor as part of the opt-in and opt-out 
process.
    We were pleased to see that AT&T, as part of this, 
immediately made their network available to public safety users 
on a priority and preemptive basis, and as we get forward with 
buildout we are going to continue pushing them to make sure 
they meet the milestones in the contract and that they are 
building out in a way that comports with all the State plans 
they handed out.
    Mr.  Costello. The State and Local Implementation Grant 
Program 2.0, which allocates, I think, a little under $44 
million to help FirstNet buildout--in Pennsylvania, the State 
police have a $425,000 grant--and I want to ask you how NTIA is 
working with State and local officials on the grant program and 
how your efforts might differ State to State depending on 
relative risk to different types of disasters or public safety 
threats.
    Mr.  Redl. Sure. You know, SLIGP, as it is lovingly known--
SLIGP 2.0 grants are in process now and all of the States have 
reached out to try to find ways to use that funding to further 
integration of State assets into FirstNet, since all 56 States 
and territories have opted into FirstNet's RAN build.
    We are working with our colleagues at FirstNet to make sure 
that we engage with the States on a day-to-day basis. You know, 
FirstNet spent a lot of time throughout this process doing 
outreach to State points of contact on these issues and 
engaging with the public safety community, and we are lucky 
that both NTIA and FirstNet have a great relationship with 
State governments and with public safety users.
    So we are going to continue working collectively to make 
sure that those folks in each State who know the needs of their 
communities are heard.
    Mr.  Costello. I appreciate your testimony and your answers 
to my questions.
    I yield back the balance of my time.
    Mrs.  Blackburn. Gentleman yields back.
    Mr. Shimkus, you're recognized for 5 minutes.
    Mr.  Shimkus. Thank you very much, Madam Chairman.
    How do we pronounce your name? Is it Reedle? Ridell?
    [Laughter.]
    Mr.  Shimkus. It's great to have you here. Thank you for 
being here.
    As you know, I am the founder, the co-chair of the Next 
Generation 9-1-1 Caucus. In this role, I've seen firsthand how 
outdated many of our 9-1-1 centers are, and how Next Generation 
9-1-1--where it's deployed has been a force multiplier for 
public safety.
    It is more reliable and resilient and faster than legacy 
systems and improves emergency responses and protection of the 
public and first responders.
    As 9-1-1 enters its 50th year--and I haven't been here for 
all those years--the urgency of the deployment of next 
generation is greater than ever.
    I know that--and you know--in 2012 Congressman Eshoo and I, 
along with your help, introduced Next Generation 9-1-1 
Advancement Act, enacted as part of the Middle Class Tax 
Relief--you mentioned that in your opening statement--and Job 
Creation Act of 2012. It provides for a $115 million match 
grant program to fund some of the implementation of Next 
Generation 9-1-1 services. And I know the chairwoman mentioned 
that about updating in her question.
    What I wanted to follow up on was additionally effective 
development of critical 9-1-1 infrastructure dictates that 
scarce funding resources must be dedicated to their stated 
purpose of enhancing first responder capabilities.
    However, despite States--and this is where we have the 
challenges--quote, unquote, ``self-identifying'' as 
nondiverters, the FCC Public Safety and Homeland Security 
Bureau continues to identify State funds collected for 9-1-1 
being diverted for non-9-1-1-related purposes.
    Given the new program, what steps is NTIA taking to combat 
9-1-1 fund diversion, and what can we do to help?
    Mr.  Redl. Well, you know, I want to thank you and 
Congresswoman Eshoo for your leadership on these issues.
    You know, it's interesting to watch. We have consumers who 
are dialing 9-1-1, have smartphones with advanced capability. 
Now that FirstNet is being stood up and in addition the other 
providers who are providing, first responders with capabilities 
have advanced smartphone-style capabilities on their devices, 
but the 9-1-1 call centers in the middle that are connecting 
the two in their most dire times haven't been able to keep 
pace.
    And so looking at ways to bring that forward is something 
that we are painfully aware of and are trying to get that grant 
program out the door as quickly as possible to bear on the 
problem.
    As far as diverters go, I think you're aware the FCC 
produces a report every year that looks at which States have 
been diverting funds--I believe it was under the Net 9-1-1 
Act--that will identify States that have been diverting funds 
away from their 9-1-1 programs for other purposes.
    This will help inform our grantmaking, as we go forward, as 
is consistent with the law.
    Mr.  Shimkus. And you know the concern is that the States 
could fully fund--they could put money in and then once the 
time for reporting occurs, then they take the money back out, 
and it's something we have argued about.
    So in your process, as you're reviewing this, if there is a 
better way for us to be more specific and, you know, you can 
ask us to help refine this, because it's just--again, as I've 
said, criminal neglect to charge someone for a purpose and then 
not use that money for the purpose it was intended to go to.
    Mr.  Redl. If we find that there are States that are gaming 
the system that aren't being identified because of foibles of 
the law, we'd be happy to work with you to try and----
    Mr.  Shimkus. And if we can point some out to you, you 
would be happy to receive that information?
    Mr.  Redl. Of course. Always.
    Mr.  Shimkus. Great. Thanks.
    The next thing I want to briefly talk about is the 5G cell 
siting, and, as you know, last week FCC announced that it plans 
to vote on an item streamlining process for small cell 
deployment at its March meeting. This approach is similar to 
the bill I introduced called the SPEED Act, which reduces the 
regulatory overhang for the siting of small cells. These 
efforts are incredibly important in winning the international 
race to 5G. Of course, you mentioned that also in your opening 
statement.
    Is the administration supportive of these efforts to 
modernize the siting process for small cells, and what is NTIA 
doing to work with Federal agencies to streamline the process 
for facilities deployment on buildings and land administered 
and managed by the Federal Government?
    Mr.  Redl. Mr. Shimkus, the President has made it clear 
that getting broadband out to the parts of rural America that 
don't have it now is a priority for this administration, and 
certainly the work that we are doing in our Broadband Internet 
Working Group will help to bear upon that.
    The Broadband Internet Working Group has been established. 
It's co-chaired by NTIA and the Rural Utility Service, and this 
is one of the issues we are currently looking at.
    How do we streamline Federal permitting processes in order 
to make it easier to build out? How do we bring Federal assets 
to bear on this challenge? How do we make sure that different 
funding programs across the U.S. Government are coordinated in 
a way that gets us the best outcome?
    We are dedicated to this challenge, and we are really 
excited about getting to yes on some of these issues.
    Mr.  Shimkus. Thank you very much.
    Madam, my time has expired.
    Mrs.  Blackburn. Gentleman yields back.
    Mr. Bilirakis, you're recognized for 5 minutes.
    Mr.  Bilirakis. Thank you, Madam Chair, and thank you, Mr. 
Secretary, for your testimony. I appreciate it so very much.
    On the opening day of this subcommittee's infrastructure 
push, I introduced House Resolution 687 to coordinate 
regulations and permitting processes between the Federal, 
State, and local governments.
    We regularly acknowledged the need to remain a leader in 
technology innovation. However, the unintended complexity of 
our broadband infrastructure rules is causing us to fall behind 
and lose investment. Our competitors, such as China, Japan, and 
Europe, are already racing to deploy 5G for commercial use.
    What can we do today to ensure that the U.S. stays in the 
lead of this innovation and speed our new spectrum bands to 
market as quickly as our competition?
    Mr.  Redl. Well, sir, at the Department of Commerce, 
Secretary Ross has made it clear that 5G leadership should be a 
priority, and we are driving full steam ahead to engage on 
every front with Congress, across the administration, and, 
perhaps most importantly, with our private-sector colleagues to 
make sure that we are able to drive standards, that we are able 
to make as much spectrum available as possible, and that we are 
able to replicate in 5G the kind of success the United States 
had in 4G.
    Mr.  Bilirakis. Very good.
    Representing the great State of Florida--although I do have 
Pittsburgh blood, by the way, you know that my dad's from 
Pittsburgh and I root for the Pirates and the Steelers and the 
Rays, of course, and the Bucs--but in any case, representing 
the great State of Florida in the Tampa Bay area, Florida is a 
payer State, as you know, into the Universal Service Fund.
    There have long been questions about the accuracy of the 
broadband data collection and the use of resources. While I 
truly believe that everyone should have access to internet 
services, I want to ensure that constituent money is going to 
the locations that need it most, of course.
    The FCC has made a number of data improvements in the last 
year. The NTIA recently provided suggestions to the FCC on 
updating its data collection practices, specifically regarding 
the Form 477 data program, as you know.
    Expanding on Mr. Guthrie's questioning, can you discuss the 
importance of Form 477 to NTIA decisionmaking and how the 
recommendations NTIA provided to the FCC will improve broadband 
data accuracy to help payer States such as this great State of 
Florida?
    Mr.  Redl. Sure, Mr. Bilirakis.
    You know, the Form 477 data is a critical tool that we all 
have as part of looking at where broadband is available.
    The FCC has long maintained this data, and while, you know, 
we can all quibble over whether it's accurate enough or 
granular enough--and I think NTIA has been very clear we think 
it needs to be more accurate and more granular--it still 
represents a critical data set.
    And as we look at what the President asks us to do if we 
get the additional appropriations to do an assessment and a 
map, 477 data would form the basis of one of those data sets. 
Having as many data sets as possible and as many of them 
validated as possible will lead us to the best possible 
outcomes.
    And, you know, I think we want to get good data in your 
hands. We want to get good data in the rest of the executive 
branch's hands. Doing so will require us to look not just at 
Form 477 but at a lot more information than that.
    Mr.  Bilirakis. Very good. Thank you.
    I yield back, Madam Chair. Appreciate it.
    Mrs.  Blackburn. Gentleman yields back.
    Mrs. Brooks, you're recognized for 5 minutes.
    Mrs.  Brooks. Thank you, Madam Chairwoman, and 
congratulations. It's good to have you here.
    I have been focused for quite some time on FirstNet and 
want to ask whether or not--how is FirstNet doing, in your 
opinion, with respect to their commitment to specify the 15 
percent geographic requirement to partner with rural telecoms? 
How is that going?
    Mr.  Redl. So, Mrs. Brooks, we are at the threshold of 
seeing FirstNet start to deploy its own network through AT&T. 
As I mentioned earlier, FirstNet is working with AT&T now on 
Task Order 4. Task Order 4 will be the order that has AT&T go 
out and begin building the State-based plans for the Radio 
Access Network.
    We are aware that it is our job at NTIA and at FirstNet to 
make sure that AT&T is living up to the terms of the contract 
it signed with the U.S. Government. We are joined at the hip 
for the next 25 years on making sure that AT&T lives up to that 
contract and that public safety first responders get the tools 
that Congress intended in the law. And so we are going to 
continue pushing forward to make sure that's the case.
    Mrs.  Brooks. Thank you.
    I am also curious, following on to Representative Shimkus' 
question, about the diversion of fees, the 9-1-1 fees of 
States.
    How does your agency follow up when States have to certify 
they've not diverted the 9-1-1 fees? What does certifying mean, 
and what is your agency's role in ensuring that the States--
rather than us maybe providing you information we might hear 
about, do you know what kind of mechanism is in place to ensure 
that 9-1-1 fees aren't--when a State certifies they haven't 
diverted fees?
    Mr.  Redl. So that report is produced and the methodology 
behind it is done by the FCC. That would be a question for the 
FCC, but I am certainly happy to follow up with them and with 
your office if you would like.
    Mrs.  Brooks. OK. I think people are probably most 
curious--the spectrum--in the last auction, the auctions have 
produced significant revenue for the Federal Government, far 
more than everyone expected and, of course, when it comes to 
our Federal budgeting process, we need as much revenue as 
possible.
    Do you have any opinion as to which bands might raise the 
most money for the Treasury as we continue to contemplate the 
spectrum auctions?
    Mr.  Redl. So I think, you know, the traditional wisdom has 
been that low-band spectrum would produce the best revenue 
outcome.
    But it's much more complicated than that when we are 
looking at which bands are going to be the most lucrative. 
There are a number of different factors that go into that. 
Relative scarcity is one of them. International harmonization 
is another. The availability of equipment in a timely manner is 
one. How fast it can be brought to market and cleared of 
incumbents is another.
    So it's a complicated equation to figure out what those 
revenues might look like, and it does seem to be evolving quite 
rapidly. You know, high-band spectrum, as I mentioned earlier, 
was not considered particularly valuable just a few years ago, 
and yet now here we stand looking at high band as having the 
potential to really drive 5G leadership.
    So I don't envy those that have to do the estimates of what 
spectrum will bring in in terms of revenue. But it is a moving 
target on its best day.
    Mrs.  Brooks. Thank you.
    And Congresswoman Debbie Dingell and I formed the 5G 
Caucus, and in talking about that you mentioned--and I am 
curious what your agency's role is--in response to 
Representative Kinzinger's questions, you mentioned pressing 
the private sector on standards. And talk to me about what your 
role is, what's the timing, because I hear that quite a bit 
from the private sector.
    Talk to us a little bit more about that statement that you 
made, and how do we accomplish that and what's your role in 
accomplishing that?
    Mr.  Redl. Sure. So, you know, NTIA plays a role in its 
engagement with the private sector as the President's principal 
advisor on telecommunications, and certainly as the agency to 
which the Secretary's communications and information functions 
were delegated.
    It would be worth noting that this is a shared obligation 
when it comes to standards, as our colleagues at NIST are also 
very engaged in working in these standards bodies. You know, 
the scientists at NIST are fantastic, and we certainly work 
hand in glove with our sister agency to make sure that we are 
producing good outcomes for the United States.
    For our part, we are going to continue pressing the 
industry. Industry participation is the backbone of getting 
private-sector-led standards adopted.
    So, from our pulpit, we will continue to push them to make 
sure that they are engaged at every phase.
    Mrs.  Brooks. Thank you.
    I certainly believe, because I understand at the Mobile 
World Congress recently 5G was all anybody talked about. So we 
better get this right, and everybody better speed it up.
    Thank you, and I yield back.
    Mrs.  Blackburn. Gentlelady yields back, and by unanimous 
consent Mr. Tonko has joined us, and you are recognized for 5 
minutes.
    Mr.  Tonko. Thank you, Madam Chair.
    Assistant Secretary Redl, welcome, and thank you for being 
here today.
    Broadband internet access is often the difference between 
success and failure for many Americans, whether they are 
students doing homework, job seekers training for a new career, 
doctors reading a medical scan, or entrepreneurs starting a 
small business.
    To date, our Government has done a poor job, I believe, of 
tracking broadband deployment, especially with public 
investments that are made with too little accountability and 
oversight on behalf of the taxpayer.
    I hope this is an issue that we can address together. As 
you know, I have been working with my colleague and friend, 
Representative Lance, on a bill called Access Broadband that 
would begin to address this issue. Our bill would establish a 
coordinating office for Federal broadband resources at NTIA. It 
would track Federal broadband dollars, streamline management of 
Federal broadband resources across multiple agencies, and most 
notably it would simplify the process for small business and 
local economic developers to access them.
    It would also help notify communities that these resources 
exist to help them expand their own local broadband access. The 
bill already has strong bipartisan support.
    My thanks to the 10 members of this committee who have co-
sponsored it to date. I would ask everyone here to help us 
advance this effort.
    So, Secretary, to your knowledge, does NTIA or any Federal 
agency currently track the construction and use of broadband 
infrastructure resources across all Federal agencies that 
provide broadband funding and support?
    Mr.  Redl. Well, Mr. Tonko, this is an issue that NTIA is 
currently in the process of evaluating.
    The President tasked the Broadband Interagency Working 
Group, which NTIA co-chairs with the Rural Utility Service, 
with looking at this issue, specifically how to look across all 
the programs in the Federal Government that are providing 
funding for broadband and make sure that they are coordinated 
with each other and are complementary to each other.
    Mr.  Tonko. Does NTIA or any Federal agency coordinate 
broadband funding so it can be distributed in an efficient 
manner, in a financially sustainable manner, and with the goal 
of serving the largest number of persons in the United States 
while promoting the most job and economic growth for all 
residents in our country?
    Mr.  Redl. Well, I am sure that every one of the programs 
looks at that individually. The across-Government aspect of 
that is what we are currently looking into right now.
    Mr.  Tonko. OK. And just the coordinating activity amongst 
agencies, because I know in our research before we drafted the 
bill there was this plethora of agencies that are involved and 
perhaps not communicating well enough with each other.
    Mr.  Redl. Absolutely, and this subcommittee certainly has 
a rich history of looking into those issues and trying to 
ensure that we don't have duplicative funding from multiple 
agencies.
    Mr.  Tonko. And have you encountered any barriers to 
working across offices or agencies?
    Mr.  Redl. You know, the Broadband Internet Working Group 
that we have been tasked with chairing has been around for a 
couple of years, and I think it's proven to be a real dynamic 
way for the agencies to get together that all have equities in 
internet work and find ways to work despite the fact that we 
are all from different agencies and that we have different 
missions.
    It's been an eye-opening experience to see how well these 
agencies are capable of working when they are given a direct 
task and asked to go do it across boundaries.
    Mr.  Tonko. Thank you. And could tracking this funding 
better ensure that the money is not duplicative or wasteful?
    Mr.  Redl. I certainly hope so. I mean, the last thing we 
want to do as a Federal Government is to spend more money than 
we have to to achieve our goals.
    That's what we are looking at doing if we were to get 
additional funding for mapping. It's what we are looking at in 
the Broadband Interagency Working Group. We'd like to find ways 
to reach that last part of America that does not have broadband 
in a way that's as fiscally responsible as possible.
    Mr.  Tonko. And is NTIA in the best position to track 
broadband funding across Federal agencies?
    Mr.  Redl. Well, we are working in a group right now that 
is NTIA and Rural Utility Service from Ag, along with others. 
But at the moment, it's a team effort across the entire Federal 
Government, and we are happy to be working with our colleagues.
    Mr.  Tonko. Would there be another agency that were perhaps 
better suited to track this funding?
    Mr.  Redl. Not that I am aware of. I mean, we are certainly 
trying to figure that out right now. Part of the challenge is 
that broadband is one of those issues that crosses so many 
jurisdictional boundaries. It provides service in so many 
different verticals and other aspects of Government service 
that we are trying to bring all those stakeholders together in 
a way that addresses everybody's needs.
    We are at the early stages. You know, I don't want to sort 
of overpromise here. But we are at the early stages, and we are 
really looking forward to getting down and getting our hands 
dirty and getting this work done.
    Mr.  Tonko. And NTIA engages in outreach to communities 
that need greater access. So what community outreach have you 
conducted in the past year, and have you seen indications that 
these outreach efforts and workshops are valuable to our 
communities?
    Mr.  Redl. We absolutely have. You know, our State 
Broadband Leaders Network has extensive relationships with 
folks at the State, county, and local level, and we continue to 
bring them together on a fairly routine basis to exchange best 
practice, to share success stories, frankly to share failure 
stories, as well, for failure to, you know, get the economic 
investment that they were looking for.
    We are excited to be doing a workshop in Nashville, 
Tennessee, in the coming months. And so this is an ongoing 
process for us to continue to reach out to State and local 
leaders and say, ``What have you learned, and how can we 
disseminate that information across the entire country?''
    Mr.  Tonko. Thank you very much.
    And with that, Madam Chair, I yield back.
    Mrs.  Blackburn. The gentleman yields back, and there are 
no further Members wanting to ask questions.
    Mr.  Doyle. Madam Chair.
    Mrs.  Blackburn. You're recognized, Mr. Doyle.
    Mr.  Doyle. Thank you. I ask unanimous consent to submit 
for the record a letter to the subcommittee from the Electronic 
Privacy Information Center.
    Mrs.  Blackburn. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr.  Doyle. Thank you.
    Mrs.  Blackburn. And I also have a UC request for a letter 
from the Utilities Technology Counsel. Without objection, so 
ordered.
    [The information appears at the conclusion of the hearing.]
    Well, you've gotten the first one under your belt, Mr. 
Redl, and I think you see that there is agreement from both 
sides up here that we have efficient use of the funds that are 
there for NG9-1-1. We are all concerned about mapping and 
broadband rollout, making certain that we utilize spectrum 
well.
    So we thank you for the insight you've provided.
    Pursuant to committee rules, I remind Members that they 
have 10 business days to submit additional questions for the 
record, and I ask that you will submit these written answers 
within 10 business days.
    Seeing no further business to come before the subcommittee 
today, committee is adjourned.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
